<html>
<title> - H.R.______, H.R. 3673, H.R. 4697, H.R. 4002, H.R. 4528, H. CON. RES. 348, H. CON. RES. 232, H. CON. RES. 297, H. CON. RES. 319, H. RES. 531, H. CON. RES. 322, AND S. CON. RES. 81</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 H.R. ____, H.R. 3673, H.R. 4697, H.R. 4002, H.R. 
  4528, H. CON. RES. 348, H. CON. RES. 232, H. CON. RES. 297, H. CON. 
      RES. 319, H. RES. 531, H. CON. RES. 322, AND S. CON. RES. 81

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 29, 2000

                               __________

                           Serial No. 106-168

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                        international_relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
68-024 CC                   WASHINGTON : 2000




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                    Marilyn C. Owen, Staff Associate




                            C O N T E N T S

                              ----------                              
                                                                   Page

Markup of H.R._____, The Defense and Security Assistance Act of            
  2000........................................................... 1, 22
Markup of H.R. 3673, to provide certain benefits to Panama if 
  Panama agrees to permit the United States to maintain a 
  presence there sufficient to carry out counter narcotics and 
  related missions...............................................     3
Markup of H.R. 4697, to amend the Foreign Assistance Act of 1961 
  to ensure that United States assistance programs promote good 
  governance by assisting other countries to combat corruption 
  throughout society and to promote transparency and increased 
  accountability for all levels of government and throughout the 
  private sector.................................................    15
Markup of H. Con. Res. 322, expressing the sense of the Congress 
  regarding Vietnamese Americans and others who seek to improve 
  social and political conditions in Vietnam.....................    18
Markup of H.R. 4002, to amend the Foreign Assistance Act of 1961 
  to revise and improve provisions relating to famine prevention 
  and freedom from hunger........................................    35
Markup of H. Con. Res. 297, congratulating the Republic of 
  Hungary on the millennium of its foundation as a state.........    37
Markup of S. Con. Res. 81, expressing the sense of the Congress 
  that the Government of the People's Republic of China should 
  immediately release Rabiya Kadeer, her secretary, and her son, 
  and permit them to move to the United States, if they so desire    39
Markup of H. Con. Res. 348, expressing the condemnation of the 
  use of children as  soldiers and expressing the belief that the 
  United States should support and, where possible, lead efforts 
  to end this abuse of human rights..............................    43
Markup of H. Con. Res. 319, congratulating the Republic of Latvia 
  on the Tenth Anniversary of the reestablishment of its 
  independence from Soviet rule..................................    45
Markup of H. Con. Res. 232, expressing the sense of Congress 
  concerning the safety and well-being of United States citizens 
  injured while traveling in Mexico..............................    46
Markup of H. Res. 531, concerning the 1994 attack on the AMIA 
  Jewish Community Center in Buenos Aires, Argentina, urging the 
  Argentine Government to punish those responsible, and for other 
  purposes.......................................................    48
Markup of H.R. 4528, to establish an undergraduate grant program 
  of the Department of State to assist students of limited 
  financial means from the  United States to pursue studies at 
  foreign institutions of higher education.......................    60

                               WITNESSES

Shirley Cooks, Deputy Assistant Secretary, Bureau of Legislative 
  Affairs, U.S.  Department of State, introducing witnesses from 
  the State Department...........................................     5
James Benson, Desk Officer for Panama, U.S. Department of State, 
  to speak on H.R. 3673..........................................     5
Robert Manogue, Bureau of Economic and Business Affairs, U.S. 
  Department of State, to speak on H.R. 3673.....................     5

                                APPENDIX

Prepared statements:

Chairman Benjamin A. Gilman concerning:
    H.R. 3673....................................................    66
    H.R. 4697....................................................    68
    H. Con. Res. 322.............................................    69
    H.R. 4002....................................................    70
Representative Kevin Brady concerning H.R. 4002..................    71
Representative Doug Bereuter concerning H.R. 4002................    73
Representative Christopher H. Smith concerning H. Con. Res. 297..    74
Chairman Benjamin A. Gilman concerning H. Con. Res. 297..........    76
Chairman Benjamin A. Gilman concerning S. Con. Res. 81...........    77
Representative Doug Bereuter concerning S. Con. Res. 81..........    78
Chairman Benjamin A. Gilman concerning:
    H. Con. Res. 348.............................................    79
    H. Con. Res. 319.............................................    80
    H. Con. Res. 232.............................................    81
    H. Res. 531..................................................    82
    H.R. 4528....................................................    83

Bills and amendments:

H.R._____, The Defense and Security 
  Assistance Act of 2000.........................................    84
    Amendment to H.R.<INF>--</INF><INF>--</INF> offered by Mr. 
      Rohrabacher................................................   100
    Amendment offered by Mr. Gejdenson to the amendment offered 
      by Mr. Rohrabacher.........................................   101
    Bereuter amendment to H.R.<INF>--</INF><INF>--</INF>, the 
      Defense and Security Assistance Act of 2000................   102
H.R. 3673........................................................   103
H.R. 4697........................................................   125
    Amendment to H.R. 4697 offered by Mr. Gejdenson..............   137
H. Con. Res. 322.................................................   138
    Committee Print of H. Con. Res. 322 adopted by the 
      Subcommittee on Asia and the Pacific.......................   140
H.R. 4002........................................................   143
    Amendment in the Nature of a Substitute to H.R. 4002 offered 
      by Mr. Gilman..............................................   163
H. Con. Res. 297.................................................   181
    Amendment in the Nature of a Substitute to H. Con. Res. 297 
      offered by Mr. Lantos......................................   184
S. Con. Res. 81..................................................   187
H. Con. Res. 348.................................................   191
    Committee Print of H. Con. Res. 348, as reported by the 
      Subcommittee on International Operations and Human Rights..   196
H. Con. Res. 319.................................................   202
H. Con. Res. 232.................................................   204
    Committee Print of H. Con. Res. 232, as reported by the 
      Subcommittee on the Western Hemisphere.....................   206
H. Res. 531......................................................   208
    Amendment to H. Res. 531 offered by Mr. Gejdenson............   212
    Amendment to H. Res. 531 offered by Mr. Gillmor..............   213
    Amendment to H. Res. 531 offered by Mr. Gillmor..............   214
H.R. 4528........................................................   215
    Committee Print of H.R. 4528, as reported by the Subcommittee 
      on International Operations and Human Rights...............   219

Additional material submitted for the record:

Letter to the Honorable Porter Goss, Chairman, and the Honorable 
  Julian Dixon, Ranking Democratic Member, of the House Permanent 
  Select Committee on Intelligence, dated June 29, 2000, from 
  Chairman Gilman and Ranking Democratic Member Gejdenson........   223

 
H.R.______, H.R. 3673, H.R. 4697, H.R. 4002, H.R. 
  4528, H. CON. RES. 348, H. CON. RES. 232, H. CON. RES. 297, H. CON. 
      RES. 319, H. RES. 531, H. CON. RES. 322, AND S. CON. RES. 81

                              ----------                              


                        THURSDAY, JUNE 29, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3 p.m. In Room 
2172, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman. The Committee on International Relations 
meets pursuant to notice to mark up several items of 
legislation.


H.R._____--THE DEFENSE AND SECURITY ASSISTANCE ACT OF 2000


    We will now consider a committee print relating to certain 
security programs. The Chair lays the committee print before 
the Committee. The clerk will report the title of the print.
    Ms. Bloomer. A bill to amend the Foreign Assistance Act of 
1961 and the Arms Export Control Act to make improvements to 
certain defense and security assistance provisions under those 
Acts, to authorize the transfer of naval vessels to certain 
foreign countries, and for other purposes.
    [The bill appears in the appendix.]
    Chairman Gilman. Without objection, the committee print is 
considered as having been read and is open to amendment at any 
point.
    I now recognize myself briefly on the measure.
    This bill modifies authorities with respect to provision of 
security assistance under the Foreign Assistance Act of 1961 
and the Arms Export Control Act. Most of the provisions have 
been requested by the Administration. Specifically these 
provisions address the transfer of certain obsolete or surplus 
defense articles, notification requirements for arms sales and 
authorities, to provide for stockpiling of defense articles in 
foreign countries.
    The bill also includes important bipartisan provision to 
address the Administration's initiative regarding exemptions 
for defense export licensing to foreign countries.
    I want to thank the Ranking Democratic Member, Mr. 
Gejdenson, for his cooperation on this provision as well as the 
NGO community for their hard work.
    In addition, this bill----
    Mr. Lantos. Mr. Chairman, the Committee is not in order.
    Chairman Gilman. The gentleman is correct. The Committee 
will come to order. Members will take their seats. We have a 
number of bills that are awaiting consideration; and, with 
cooperation, we will get through them in a hurry.
    In addition, the bill authorizes the transfer of two naval 
vessels to Chile and provides authority to the President to 
convert existing leases for 10 ships which have already been 
transferred to Brazil, to Greece and to Turkey. I am pleased to 
note that we have successfully enacted into law over the past 4 
years each of our bills addressing security assistance matters. 
I hope we are able to continue our record with this measure.
    I recognize the gentleman from Connecticut, our Ranking 
Minority Member, Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    I appreciate the Chairman's cooperation on agreeing to some 
adjustments to the original language which will facilitate our 
national interest and our interest in cooperating with some of 
our most important allies like the United Kingdom and 
Australia. The improvements in the legislation make this a good 
bill. I support the Chairman's efforts.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    I recognize the gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. I thank the Chairman for his leadership in 
crafting the Defense and Security Assistance Act of 2000, which 
authorizes the transfer of excessive military equipment and 
naval vessels to allied nations. I am grateful that my proposed 
amendment on providing assistance to our democratic ally in the 
Pacific, the Republic of the Philippines, has been incorporated 
into the bill as section 105.
    The Philippines, which lacks a credible air force or a navy 
and where 60 percent of its soldiers and their families live 
under the poverty line, has been handicapped by inadequate 
funds to modernize its armed forces. In recent months, a 
guerrilla war and terrorist campaign backed by international 
terrorists, for instance, Mr. bin Laden, has been a tremendous 
strain on Philippine security forces.
    At the same time as counterinsurgency casualties are 
mounting in the southern part of the Philippines, Communist 
China has continued building its forces in Philippine 
territorial waters in the South China Sea, the Spratly Islands 
and in other places and also in, specifically, Mischief Reef.
    Section 105 authorizes the U.S. Government to work with the 
government of the Philippines to procure military equipment 
that can upgrade the capabilities and improve the quality of 
life of the armed forces of the Philippines. The equipment 
includes naval vessels; amphibious landing craft; F-5 aircraft 
and aircraft that can be used for reconnaissance, search and 
air rescue and supply; helicopters; vehicles and other 
personnel equipment.
    This bill is essential to transfer defensive equipment no 
longer used by our forces to assist America's allies around the 
world to have the means to defend themselves from terrorism and 
aggression. I am suggesting that what we are doing here for the 
Philippines fits right into that. The Philippines is struggling 
to have a democracy. They are committed to free press and to 
the other values of our society. We should try to help them 
out.
    Lord only knows that we are offering loans to people who 
are investing in dictatorships like Vietnam or Communist China. 
The least we can do is try to help the Philippines with surplus 
military equipment so they can defend themselves against 
subversion and aggression.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Rohrabacher.
    Is any other Member seeking recognition on this measure?
    If there is no other Member seeking recognition, the 
gentleman from Nebraska, Mr. Bereuter, is recognized to offer a 
motion.
    Mr. Bereuter. Mr. Chairman, I move that after the 
introduction of the pending bill the Chairman be requested to 
seek consideration of the bill on the suspension calendar.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska. Those in favor of the motion signify 
by saying ``aye.'' Those opposed, say ``no.''
    The ayes have it. The motion is agreed to. Further 
proceedings on this measure are postponed.


        H.R. 3673--UNITED STATES-PANAMA PARTNERSHIP ACT OF 2000


    We will now consider H.R. 3673, relating to benefits for 
the Panama Canal. The Chair lays the bill before the Committee. 
The clerk will report the title of the bill.
    Ms. Bloomer. H.R. 3673, a bill to provide certain benefits 
to Panama if Panama agrees to permit the United States to 
maintain a presence there sufficient to carry out 
counternarcotics and related missions.
    Chairman Gilman. This bill was introduced on February 16, 
2000, referred by the Speaker to this Committee, in addition to 
the Committee on Ways and Means, and in each case for the 
consideration of such provisions as fall within the 
jurisdiction of the committee concerned.
    Without objection, the first reading of the bill is 
dispensed with. The clerk will read the bill for amendment.
    Ms. Bloomer. Be it enacted by----
    [The bill appears in the appendix.]
    Chairman Gilman. Without objection, the bill is considered 
as having been read and is open for amendment at any point.
    I recognize myself briefly in support of the bill.
    I first introduced the United States-Panama Partnership Act 
in October 1998 with a bipartisan list of distinguished 
sponsors, including not only many of our Republican colleagues 
but also the distinguished Ranking Member of our Subcommittee 
on International Economic Policy and Trade, Mr. Menendez, and 
the distinguished Ranking Member of the Committee on Ways and 
Means, Mr. Rangel.
    We introduced this legislation because Panama and the 
United States stand at a crossroads in the special relationship 
between our two peoples that dates back nearly 100 years. At 
the dawn of the new century, our two nations must decide 
whether to permit this special relationship to die or to renew 
and reinvigorate it for the next century.
    This legislation offers Panama the benefits of closer 
relations with the United States. In exchange for such 
benefits, it asks Panama to remain our partner in the war on 
drugs by agreeing to a U.S. presence, alone or in conjunction 
with other nations, sufficient to carry out vital 
counternarcotics and related missions. Our nation has a 
critical need for access to some of the facilities that we had 
in Panama up until the end of last year.
    General Wilhelm, the Commander of the U.S. Southern 
Command, recently admitted to Congress that today our nation 
has only one-third of the capability to interdict narcotics 
smuggled into the United States that we had before we lost 
access to our facilities in Panama.
    I am only aware of two potential objections to this 
legislation. The first is that Panama may not be interested in 
the kind of relationship that we are offering. None of us know 
for sure whether or not Panama would be interested because our 
nation has never before seriously offered such a relationship 
to Panama.
    Public opinion surveys in Panama have consistently shown 
that 70 percent of the Panamanian people would like there to be 
a continued U.S. presence in Panama. But, more importantly, 
this legislation does not seek to force Panama to enter into 
any such relationship. It does not even force the President to 
offer such a relationship. It merely authorizes the President 
to make such an offer. If the President decides to make such an 
offer, Panama will be free to accept or reject it.
    I believe that, if we pass this legislation, we can 
significantly reduce the flow of drugs into our own nation. If 
I am wrong about that, then the worst that can be said about 
passing this bill is that we may have wasted our Committee's 
time. That is a risk I am prepared to run, given the 
significant possible rewards our nation would reap if we are 
right and the skeptics are wrong.
    The second potential objection to this bill is that it is 
another trade giveaway. I am very sensitive to that concern. 
That is why I vote against most free trade measures such as 
NAFTA and fast track authority.
    But this bill is not a trade giveaway. For the first time 
ever, this bill asks for something in return for enhanced 
access to our U.S. market. What we will get in return is that 
the facilities we need to interdict the flow of drugs into the 
United States will be adopted. This bill can save and will save 
American lives if adopted.
    In addition, I would remind our Members that the trade-
related portions of the bill, sections 4(e), 5 and 6, are not 
technically before our Committee. Those parts of the bill are 
referred to the Committee on Ways and Means, and we do not have 
jurisdiction to report or amend it. The Ways and Means 
Committee will consider those portions of the bill later on, 
and when we vote today we will be voting only on whether to 
report the other nontrade-related portions of the bill. I 
invite our colleagues to support H.R. 3673.
    I would be pleased to yield to the gentleman from 
Connecticut, Mr. Gejdenson.
    Mr. Gejdenson. Mr. Chairman, I might start by asking the 
Administration what concerns they have about this legislation. 
My understanding is that there are some discussions going on. 
To enter into the negotiations with an offer that this 
Committee doesn't have the jurisdiction to provide, and that 
Members may not understand the magnitude of, is questionable. 
When you do free trade agreements, what happens if the Chinese, 
for instance, decide to use Panama as a transshipment zone. The 
fact that clothing is boxed in Panama, does a free trade 
agreement mean that anything made in China that gets handled 
for a moment in Panama becomes a Panamanian product that can 
enter America's market?
    So it is not so simple as the Chairman would have us 
believe, that by passing this resolution we will end the travel 
of drugs to the United States and reengage the Panamanians in a 
positive relationship, ignoring some of the recent past. Most 
experts tell us, maybe we ought to leave Panama alone for a 
little while to get over the previous relationship so that we 
can develop a new one.
    I would like to hear from the Administration first.
    Chairman Gilman. Would you please identify yourself?
    Ms. Cooks. I am Shirley Cooks from the Bureau of 
Legislative Affairs at the State Department. With your 
permission, Mr. Chairman and Mr. Gejdenson, I would like to ask 
my colleagues to answer your question.
    Chairman Gilman. They should be identified as well.
    Ms. Cooks. Thank you.
    Chairman Gilman. Would you please state your title?
    Mr. Benson. I am James Benson, Desk Officer for Panama, 
Department of State. I will just address the points on the move 
to discuss with the Government of Panama this sort of 
arrangement.
    I think our view, from our conversations with senior 
Panamanian officials, is that there is no interest on the part 
of the Government of Panama in discussing anything that even 
approaches a reopening of former U.S. facilities there. In 
fact, Ambassador Ford, the Panamanian Ambassador to the United 
States, speaking in the Chambers of this Committee 2 weeks ago 
at an Atlantic Council-sponsored event, was emphatic in saying 
that the Government of Panama will not discuss the stationing 
of any U.S. forces in Panama in the future.
    Therefore, sir, in response to your question on what we 
think about the possibility of such discussions with the 
Panamanians, our view is that they really stand no chance.
    I would pass to my colleague on the economic side.
    Chairman Gilman. Please identify yourself.
    Mr. Manogue. Yes, sir. I am Bob Manogue. I am in the 
Economic Section of the State Department. I work on trade 
matters.
    Inasmuch as this section of the bill would be taken up on 
the House Ways and Means Committee, that would probably be the 
appropriate place to discuss the technical aspects of the trade 
portion. But many of these provisions have been already 
provided in the CBI enhancement bill which was signed into law 
on May 17.
    The major concern which the House Ways and Means and the 
Administration would have would be the transshipment of Chinese 
goods through Panama. There is a history of transshipment 
through Panama of Chinese goods. This bill in certain sections 
would give the Customs and Commerce Department pause on the 
viability of those shipments moving through Panama.
    Mr. Gejdenson. Mr. Chairman, I would hope that possibly the 
Chairman might consider holding this bill up and, maybe, we 
would have a discussion with the folks in Ways and Means 
whether there is any realistic option of developing a free 
trade agreement with the Panamanians that would protect 
American workers, protect Americans' interest in having fair 
trade with Panamanians, and also to understand whether or not 
we are being helpful in dealing with the Panamanians.
    If the Panamanians are sitting there expressing their 
noninterest and the U.S. Congress keeps kind of upping the ante 
of what we will give them to please let us back in, they think 
that their assets are more valuable than they are, and the only 
thing this Committee's actions may actually do is make it more 
difficult to come to an agreement with the Panamanians.
    I hope the Chairman maybe holds this bill over. We can have 
some discussions. Maybe there is some way we can come to 
something productive. But I just think sending a bill that is 
going to languish in Ways and Means to create free trade may 
make us feel good but doesn't really accomplish that.
    We don't really end up fighting drugs. We may make it more 
difficult to get the Panamanians to actually be supportive of 
an American presence, thereby creating the misimpression that 
we are willing to give them just about everything or anything 
in order to have the possibility of an American presence there. 
Mr. Chairman, I hope maybe you would consider we could put this 
off. Maybe we could find a way to do something. My sense is we 
can pass this out of Committee. We are not going to accomplish 
anything. I don't think that is the Chairman's desire. Maybe we 
would be better off waiting a bit.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Mr. Chairman, I think that some of these 
arguments that are being presented against your bill are 
nonsense--just total nonsense. Just as the testimony from our 
State Department was nonsense. We have a State Department that 
has been undermining America's real position, that we would 
like to have some troops down there because there is a real 
security threat in Panama, and this Administration has sent 
signals under the table and behind the curtain and at social 
events to the new Panamanian Government that this government 
really doesn't want troops down there. That may not be what the 
official position is of our government, but that is the message 
that the Panamanian Government has received from the Clinton-
Gore Administration.
    This Administration was negotiating for some type of 
American presence for months, and they got nowhere, even though 
polls indicate that 80 percent of the Panamanian people want 
some type of American military presence in Panama. This 
Administration is practicing wink diplomacy. That is, they 
state a position for the American people because they know how 
untenable their real positions are, and then they go to these 
other governments and they wink as they are saying that 
position and behind the scenes tell them what their real 
position is. Nowhere is that more clear than Panama.
    While I was in Panama and talked to the people down there, 
it was evident how much the Panamanian people depend on the 
United States, appreciate the United States and want the United 
States to be in their country as a stabilizing force against 
corruption and against the terrorist gangs. In the south, we 
have a Gallup poll on the screen right now indicating that 80 
percent of the Panamanian people want to have some kind of 
presence, American military presence, in Panama.
    Take a look at it. That is not Dana Rohrabacher's poll. 
That is a poll of the Panamanian people. Even with 80 percent 
of the Panamanian people on their side, our government couldn't 
negotiate an agreement with the Panamanian Government to 
fulfill the desire of the Panamanian people and to fulfill the 
security needs of both of our countries. That is why I am 
calling into question the actual integrity of that process and 
the validity of the statements being made by our own State 
Department.
    Mr. Chairman, I don't think your amendment goes far enough. 
I have accepted postponement of marking up my own resolution 
which deals with the long-term threat to American security 
interests in Panama related to the Chinese control of both 
ports on the end of the Canal and the corrupt process that took 
place that resulted in a Communist Chinese warlord, a 
billionaire who is very close, a part and parcel of the Chinese 
leadership in Beijing, now having control of both ends of the 
Panama Canal. I postponed my resolution.
    Your resolution is far less aggressive than my own, and 
yours is focused on the threat that the drug lords in Colombia 
are----
    Mr. Gejdenson. Will the gentleman yield for a second?
    Mr. Rohrabacher. Yes.
    Mr. Gejdenson. I want to say, I know the gentleman is 
earnest in his beliefs, but I am not sure he is the ultimate 
judge of sense and nonsense. But my question would be, if the 
elected Government of Panama doesn't wish to agree with the 
Administration on a lease, the lease you are talking about--I 
think the American companies want a couple and the Chinese 
company wants one--but if the elected government doesn't want 
to lease us space and 80 percent of the people of Panama do 
want to lease us space, how do we resolve that? Do we negotiate 
directly with the people?
    Mr. Rohrabacher. This is not about that. Eighty percent of 
the Panamanian people aren't talking about the lease 
arrangement for those port facilities. They are talking about 
an American military presence in their country that enforces 
stability. Because they understand the Communist Chinese are 
down there in force, they understand that drug lords and the 
gangsters are down there in force and that they have been 
through this drill before and we had to send American troops 
down there at a great cost of their lives and our lives.
    Mr. Gejdenson. I agree with you that the Panamanians would 
be better off with an American presence there, but their 
elected leadership has to make that decision.
    Mr. Rohrabacher. Reclaiming my time, that is exactly why I 
am suggesting to you that this Administration is practicing 
wink diplomacy in establishing a public position that we can 
talk about here when, behind the scenes, they are telling the 
Panamanians exactly the opposite.
    This type of thing has happened before. It is easy to 
recognize. It happens when you have polls like this that are 
right in front of us that show that there is some kind of an 
incomprehensible dichotomy between what an overwhelming number 
of the people want and when their government is doing something 
against their own interests. What usually happens is that there 
are some people in our State Department or other branches of 
our government giving them behind-the-curtain messages and 
whispers that are different than the public stances we have 
taken.
    I am sorry for doubting the integrity of the way our State 
Department and this Administration is acting on this issue, but 
when I went down there it became clear that there are forces at 
work that are not going to be to the benefit of the United 
States and certainly not to the security interests of what the 
Panamanian people have for their own country.
    I strongly support the Chairman's motion. I postponed 
consideration of my own motion, although it is parallel in many 
areas to what the Chairman is trying to accomplish here. This 
is now something that I think will lack support on the floor. I 
think the Chairman's motion will receive widespread support 
once it gets to the floor of the House.
    Chairman Gilman. Thank you, Mr. Rohrabacher.
    Mr. Ackerman.
    Mr. Ackerman. Thank you very much, Mr. Chairman.
    Mr. Chairman, I am afraid I have to oppose this legislation 
both on substantive and procedural grounds. I was intrigued by 
the statements from our colleague from California that, based 
on a poll taken in some other country, that it warrants the 
presence of U.S. troops. I wondered if he would join me and 
others who would want to take a Gallup poll of the whole world, 
which would automatically trigger us sending a U.S. presence, 
as he put it, to any country that had 80 percent of the people 
or more that wanted us. Because I assure you there are a lot of 
places that would feel more secure with a U.S. presence.
    Mr. Chairman, this is a giveaway for which we get 
absolutely nothing. On the substance, the bill is supposed to 
induce Panama to agree to a future U.S. presence on our former 
military bases there. I have seen no indication from the 
Government of Panama and neither has anybody that I know of, 
including the Administration, that the Panamanians are at all 
interested in negotiating with us for a further U.S. presence 
there.
    Almost 3 years ago, we had a tentative deal for a 
multilateral counternarcotics center in Panama, but the 
Panamanians broke the deal because they believed the political 
climate was not conducive. To my knowledge, nothing has changed 
in the political climate in Panama; and I don't think this bill 
will induce them to come back to the table.
    If you are concerned about our ability to maintain 
surveillance of the region for purposes of drug interdiction, 
this bill really doesn't help you. To replace our presence in 
Panama from which we used to do this surveillance, the 
Administration has negotiated agreements with Ecuador, Curacao, 
Aruba, and El Salvador to establish forward, operating 
locations in each country. If you recall, Mr. Chairman, we, 
together, visited with a CODEL that you led to the region and 
were briefed extensively on how much more effective that was 
going to be.
    With the approval of the President's supplemental request, 
we can get each of these locations up and running at their full 
capacity, which I am told by U.S. Southern Command will be 
greater than the surveillance coverage that we had previously 
from Panama. In any event, completion of the necessary work on 
the FOLS will occur much more quickly than any agreement we 
might be able to reach with Panama if this bill were to become 
law, which is a problem in and of itself.
    Last, Mr. Chairman, I also find the procedure worthy to 
object to. The Western Hemisphere Subcommittee hasn't held any 
hearings on this bill and has not marked up this bill; and, in 
fact, as near as I can tell, and I am the Ranking Member, I 
don't think the Subcommittee Chairman has waived jurisdiction.
    Beyond this, it doesn't seem to me that the Ways and Means 
Committee, which has jurisdiction over the trade provisions in 
the bill, has any intention of reporting it.
    So I think that considering this bill today is an enormous 
waste of the Committee's time. For those reasons, Mr. Chairman, 
I would urge the Members to vote no on the legislation.
    Chairman Gilman. Mr. Bereuter. Will the gentleman yield for 
a moment?
    Mr. Bereuter. Yes, I yield.
    Chairman Gilman. To respond to Mr. Ackerman's contention 
that if we were to take on this new project back in Panama that 
we would have a less of our capability than ever before, I 
would like to read from Commander in Chief General Wilhelm's 
letter to us dated June 8, 2000, reading just a portion of it, 
in which he says: Until funds are available and the work on the 
airfields is complete--he is talking about the new potential 
airfields that the Administration is talking about--we estimate 
our capability will continue to be approximately one-third of 
what it was in Panama.
    We are concerned about the loss of this space. We are 
concerned about the opportunity to interdict the drugs that are 
coming out of Latin America, coming out of the Caribbean, 
coming out of Colombia, and this was a very important base to 
us for those operations. That is why we introduced this 
measure.
    With regard to trade, that we leave entirely up to the Ways 
and Means Committee.
    Mr. Ackerman. Will the Chairman yield?
    Chairman Gilman. It is Mr. Bereuter's time.
    Mr. Bereuter. I will yield.
    Mr. Ackerman. Thank you very much, Mr. Bereuter.
    I would just remind the Chairman and the Committee that the 
funding for the airfields is already as far as the conference 
committee and is much more likely to be approved in a rapid way 
and certainly much more quickly than any agreement that can 
ever possibly, if at all, be reached with Panama over this.
    Mr. Bereuter. Reclaiming my time. I would like to express 
my support of the legislation. I don't have the doubts or 
concerns or views of Mr. Rohrabacher with respect to the State 
Department, but I do believe that Pan-American relations have 
suffered some substantial deterioration that are in part caused 
by actions in this government a long, long time ago. I believe 
that the Chairman's incentives, inducements in this legislation 
are worth offering.
    Certainly most of the benefits that would be accrued 
potentially come from the Ways and Means Committee 
jurisdiction. What we would add in the way of inducements are 
not substantial, but it seems to me that we have to express our 
sense of view. And if it is the will of the Congress that we 
proceed in this area, then we are doing what an authorizing 
committee should be doing, and we are not simply bowing to the 
State Department because they happen to say they don't see any 
opportunity for this to succeed.
    We need to be more active as an authorizing committee. I 
think the Chairman has given us a very interesting and, as far 
as I am concerned, a sufficiently positive piece of 
legislation, that we ought to approve it.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Mr. Rothman.
    Mr. Rothman. I thank the Chairman. I move to strike the 
last word.
    Chairman Gilman. You don't need to strike the last word. 
You are recognized.
    Mr. Rothman. Thank you, sir.
    I would like to inquire of whomever has this information, 
have there been hearings on this subject such that a member of 
the general committee here might know the nature and extent of 
the narcotics or terrorist threats that are the subject of this 
bill?
    Chairman Gilman. Mr. Rothman, we had a hearing last summer 
and Ambassador McNamara was before us. We had an extensive 
review of the situation at that time.
    If the gentleman would yield a moment----
    Mr. Rothman. Certainly, Mr. Chairman.
    Chairman Gilman [continuing]. I am going to ask that that 
chart be run up again on our viewing screen here.
    I am reading now. The drug control assets DOD contributes 
to reducing the illegal drug supply have declined. It is a GAO 
report, dated December 1999. At the bottom of that chart there 
is a paragraph that reads, according to the Southern Command 
commander, ``significant deficiencies in the availability of 
required assets,'' impede the command's ability to react 
quickly and effectively to changes in drug traffickers' 
patterns throughout the region.
    What the chart shows, the black lines--the black graph--are 
the number of flights that have been requested by the Southern 
Command; and the white bar shows the number of flights that 
were actually able to be provided by DOD. You will note that, 
in 1999, they had a number of DOD flights that were available 
despite the black bar, the number of requests. And that is the 
year we left Panama.
    I thank you for yielding.
    Mr. Rothman. If possible, if I could have my time 
extended----
    Chairman Gilman. Without objection.
    Mr. Rothman. Thank you, as I was delighted to yield to my 
friend, the Chairman.
    Let me see if I understand this. A year ago, Mr. Chairman, 
1 year ago, there were hearings at which I believe the nature 
of those hearings was the status of the negotiations about 
something other than providing a military presence by the 
United States in Panama. In other words, last summer there were 
no hearings about having a military presence in Panama. They 
were with regards to other things? Is that right, Mr. Chairman?
    Chairman Gilman. At that time, it was a hearing on the 
general situation in Panama and the negotiations that were 
under way at that time with regard to our bases.
    Mr. Rothman. But since last summer, we have had no hearings 
about the nature of any increased threats in the region. I, for 
one, am for a very active, outreaching military----
    Chairman Gilman. If the gentleman would yield, my staff 
informs me that the Government Reform Committee had a review 
just this last month, Congressman Mica's Subcommittee on Crime 
and Narcotics.
    Mr. Rothman. Are they a subcommittee of this Committee, 
sir?
    Chairman Gilman. No, they are a subcommittee of the 
Government Reform Committee. He chairs a task force on 
narcotics.
    Mr. Rothman. Reclaiming my time, Mr. Chairman, there would 
be no way, unless, of course, the minutes or summaries of those 
Government Reform hearings were provided to Members of this 
group, which I don't believe they were.
    Chairman Gilman. If the gentleman would yield, we can make 
those available, if you desire.
    Mr. Rothman. If you can do it before we vote, that would 
certainly be appropriate. Because I can't imagine us on this 
Committee voting to commit U.S. forces in another country, 
voting to commit a certain level of trade relations with 
another country, among other provisions of this bill, without 
knowing the results of the hearings. It is just mind-boggling.
    I, for one, am for a very strong outreach of our military. 
I don't believe in isolationism. When my colleagues in the 
Congress, including my dear colleagues on the other side of the 
aisle, a number of them, constantly say we are too far extended 
in the world, we are not America's police officers. I always 
say, well, we have to stand up for freedom and for ourselves 
around the world.
    But to me there is no rational basis that has been provided 
to this Committee in terms of testimony or evidence upon which 
we can make a rational judgment as to whether or not to pass 
this bill. And I say that mindful of the notion that usually, 
whether it be a Democratic President or a Republican President, 
it is not my recollection that the Congress in advance tells 
the President what negotiating strategy the President must 
employ with such specificity in terms of the quids and the 
pros--or pro quos, however it goes, that the President is going 
to have to give in exchange for what will be given to us by 
another country.
    In my 4 years here, I think it is somewhat unprecedented. 
Not only that, I think it is a bad deal. If, in fact, 80 
percent of the people of that nation want America's troops, 
doesn't that mean, then, that we can be less generous in what 
we need to offer them to induce them to take our troops? If 80 
percent of their people want us there, why are we being so 
generous now in advance without any negotiations having taken 
effect?
    Mr. Rohrabacher. Will the gentleman yield for a question?
    Mr. Rothman. Certainly.
    Mr. Rohrabacher. You just asked a question. Doesn't that 
set off alarm bells in your own mind as to whether or not this 
Administration is using the leverage we have for something that 
was so important to our own national security?
    Mr. Rothman. With due respect, let me reclaim my time and 
let me respond to the gentleman's inquiry.
    No, it does not. I don't see a logical connection between 
the fact that the people of a nation wish America's military 
presence and the necessity or worthwhileness of America 
committing its troops to that nation.
    As my colleague, Congressman Ackerman, indicated, which I 
think is pretty obvious to everyone, there are many, many 
nations around the world that one can imagine where there are 
civil wars or there is strife on virtually every continent 
where the people of those nations would want America's military 
presence there to protect them. It certainly is understandable. 
That doesn't tell us that it is in America's foreign policy 
interests or necessity for us to commit those forces there, 
especially when my colleagues in the Congress are constantly 
crying that we are overextended around the world.
    I may very well support the deployment of troops or 
military presence in Panama. I am ready to do so. All I need is 
some evidence or some documentation or some testimony before 
this Committee, not another committee, so that I can make a 
judgment. One would have to ask how any Member of this 
Committee, other than those with some unknown abilities to gain 
this kind of information----
    Chairman Gilman. The time of the gentleman has expired.
    Mr. Rothman. If I may have 30 additional seconds.
    Chairman Gilman. Without objection.
    Mr. Rothman [continuing]. How any Member of this Committee 
could vote to deploy United States military forces without 
having heard testimony about the necessity or good sense of it. 
Could you imagine if your constituents found out you voted to 
deploy U.S. troops in another country and you didn't take any 
testimony on it?
    Thank you, Mr. Chairman.
    Chairman Gilman. Mr. Tancredo.
    Mr. Rothman. If I may just finish, Mr. Chairman. I would be 
in favor of this once the evidence is before us.
    Chairman Gilman. The time of the gentleman has expired. Mr. 
Tancredo.
    Mr. Tancredo. Mr. Chairman, I yield my time to the 
gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Perhaps we should take advantage of the 
fact that we are all together here to talk about why Panama is 
important. First of all, Panama is where the two continents 
come together. It is also where the two oceans come together. 
It is one of the most strategic points in the entire world. Let 
us start with that.
    Mr. Rothman. Will the gentleman yield?
    How about Kosovo? Was that important?
    Mr. Rohrabacher. No, it wasn't important.
    Reclaiming my time, I voted against Kosovo. Yes, sending 
our troops to the Balkans didn't make any sense to me when, 
especially, a large number of people in the Balkans didn't want 
us to send our troops there, as compared to the overwhelming 
number of people of Panama, a country which is probably of the 
most strategic importance of any country in the world to the 
security of the United States.
    Mr. Delahunt. Will the gentleman yield?
    Mr. Rohrabacher. Let me go through a little bit more.
    It is a choke point. There are indications that after 
American troops left from there protecting--by the way, I 
forgot to mention where you have this choke point, there is a 
canal across there. And a large amount of trade that comes from 
our country and to our country goes through the canal. Also, in 
case of a national emergency, we would have to send troops to 
the canal that could save American lives.
    Mr. Rothman. If the gentleman will yield, does the 
gentleman want us to send troops to Mexico and Canada also?
    Mr. Rohrabacher. I would send troops to Panama before I 
would send troops to Mexico. Because the Panamanian people, by 
80 percent, feel that we have been a positive force.
    Mr. Lantos. Mr. Chairman, I have a point of order.
    Chairman Gilman. The gentleman's point of order.
    Mr. Lantos. Mr. Chairman, I wonder if it would be possible 
by unanimous consent to postpone the Panama discussion to the 
end of our dealing with all the many other bits of legislation 
we have to deal with? I have great respect for my good friend 
from California and my friend from New Jersey, but I think it 
is important we get our job done. If they would allow us to 
move on to the other items and put the Panama issue on hold 
until we finish all other items. I make such a unanimous 
consent request.
    Chairman Gilman. Mr. Lantos, after the gentleman finishes 
his remarks, you can make that formal request.
    Mr. Lantos. Thank you, Mr. Chairman.
    Mr. Rohrabacher. Let me just say, again, we have gone 
through the importance of Panama being there in the middle of 
two continents and two oceans and there is a canal there. Also, 
since the Americans have left, there has been an infestation of 
Panama which was noticeable to all those Panamanian people--it 
is why they want us there--of gangsters, criminals, terrorists, 
drug dealers; and the fact that the Chinese Communists now have 
targeted their country hasn't escaped their attention as well. 
It may have escaped the attention of the State Department, it 
may well have, but it didn't escape the attention of those 
Panamanians. They have already gone through great hardship, 
where America has had to fight their way into their country.
    The fact is, we have played a very positive role in Panama. 
Panama is vitally important to the strategic interests of the 
United States. The Chinese Communists, an organization--a 
financial organization headed by Li Ka-Shing, who is in the 
inner circle of the Communist Chinese leadership, now has 
control of both ends of the Panama Canal, received that control 
in a corrupt bidding process that our Administration let go 
through without any complaints at all.
    These things indicate that we have a big problem down 
there. We should pay attention to that country. If we don't, we 
are doing so at our own peril.
    I yield back the balance of my time.
    Mr. Ackerman. Mr. Chairman, I would like to ask the 
gentleman from California, if I may, that if the Russians 
commissioned a poll in the United States and found that 80 
percent of the people were in favor of ratifying the 
nonproliferation treaty, how much effect do you think that 
would have on the U.S. Senate or the Administration?
    Mr. Rohrabacher. I would be happy to answer that.
    There is no correlation between numerous polls conducted, 
not just by Gallup poll but by many organizations, 
demonstrating that the people of Panama overwhelmingly would 
like to have a U.S. presence in their country. And it is in our 
national security----
    Mr. Ackerman. That wasn't my question. The question is, 
does a government give up its sovereign right to negotiate 
because some other sovereign government commissioned a poll in 
their country? Would that affect us? I tend to think that we 
would not turn on our foreign policy because somebody 
commissioned a poll here.
    Mr. Rohrabacher. Reclaiming the time, I will just end, no 
one is suggesting, especially this Congressman or Mr. Gilman, 
that anything be done that would in any way override or step on 
the sovereignty rights of Panama.
    With that, I yield back my time.
    Chairman Gilman. The time of the gentleman has expired.
    Mr. Lantos has a proposal to put before the Committee. Mr. 
Lantos, state your proposal.
    Mr. Rohrabacher. Mr. Chairman, I would ask unanimous 
consent that my colleague Mr. Delahunt be given 1 minute, 
because he has been waiting to make a point.
    Chairman Gilman. Without objection. One minute will be 
granted.
    Mr. Delahunt. I will just take a minute.
    This new concept of poll diplomacy--I guess, in the poll, 
did it indicate how many troops, was it company size, 
battalions or divisions that the Panamanian people wanted?
    Mr. Rohrabacher. The many polls that have been taken 
indicate they want a significant American presence.
    Mr. Delahunt. Could you give me some numbers?
    Mr. Rohrabacher. It is not poll diplomacy. It is wink 
diplomacy.
    Mr. Delahunt. It is either wink or poll diplomacy. That 
would be an interesting hearing. What are we talking about in 
terms of numbers, according to either yourself or according to 
this poll?
    Mr. Rohrabacher. That is not determined, obviously.
    Mr. Delahunt. I see. That is left for more diplomacy.
    Chairman Gilman. The time of the gentleman has expired.
    Mr. Lantos.
    Mr. Lantos. Mr. Chairman, I ask unanimous consent that we 
postpone the Panama discussion until after all other items we 
have under consideration.
    Mr. Burton. Reserving the right to object.
    Chairman Gilman. Reservation of objection by Mr. Burton. 
Mr. Burton will set forth his objection.
    Mr. Burton. Let me just say that a number of us--and I have 
the highest regard for Mr. Lantos. We have become pretty good 
friends over the past 6 months to a year. I have high regard 
for him. But a lot of us have other things we need to go to. My 
concern is that this is an issue that many of us feel very 
strongly about, and if we postpone it until the end of the 
hearing we may be detained in another meeting and not able to 
vote on this issue. With great reluctance, Mr. Lantos, because 
of that, I will object.
    Mr. Lantos. I will then call for----
    Chairman Gilman. Objection is heard.
    Mr. Lantos. I call for a vote on this issue.
    Chairman Gilman. The gentleman has not made a motion.
    Without objection, the previous question is ordered. The 
gentleman from Nebraska, Mr. Bereuter, is recognized to offer a 
motion.
    Mr. Bereuter. Mr. Chairman, I move that the Committee 
report the bill to the House with a recommendation that the 
bill be passed.
    Chairman Gilman. The question is on the motion of the 
gentleman from Nebraska. Those in favor of the motion, signify 
in the usual manner. Those opposed, say no.
    The ayes have it. A quorum being present, the motion is 
agreed to. Without objection, the Chair or his designee is 
authorized to make motions under rule XXII with respect to a 
conference on this bill or a counterpart from the Senate. 
Without objection, the chief of staff is authorized to make 
technical, conforming and grammatical changes to the text of 
the bill.


  H.R. 4697--INTERNATIONAL ANTI-CORRUPTION AND GOOD GOVERNANCE ACT OF 
                                  2000


    We will go on to the next measure, H.R. 4697, the 
International Anti-Corruption and Good Governance Act. We will 
now consider H.R. 4697, to help promote good governance. The 
Chair lays the bill before the Committee.
    Ms. Bloomer. H.R. 4697, a bill to amend the Foreign 
Assistance Act of 1961 to ensure that United States assistance 
programs promote good governance by assisting other countries 
to combat corruption throughout society and to promote 
transparency and increased accountability for all levels of 
government and throughout the private sector.
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with. The clerk will read the bill for 
amendment.
    Ms. Bloomer. Be it enacted by the Senate and----
    [The bill appears in the appendix.]
    Chairman Gilman. Without objection, the bill is considered 
as having been read and is open to amendment at any point.
    I now recognize our distinguished Ranking Member, the 
gentleman from Connecticut, Mr. Gejdenson, to introduce the 
bill.
    Mr. Gejdenson. Mr. Chairman, I appreciate your courtesy.
    I just want to say that as we look at our very important 
aid program, we look at our very important trade relations with 
other countries, what is clear is many opportunities for 
American industry and opportunities for developing countries 
have been thwarted by massive corruption. We now see a 
democratic government in Nigeria trying to make up for decades 
of plundering of their society.
    According to officials at the U.S. Commerce Department, in 
the past 5 years, U.S. firms may have lost as much as $25 
billion in foreign contracts because of bribes. What is clear 
is, as we have led the world in democracy, democratic 
institutions and free markets, we can lead the world as well in 
developing a transparent and honest system of commerce and 
government.
    What I can tell you is, for a long time, we didn't have 
support from our European allies. But yet alas even they, our 
major economic competitors in the G-7, now recognize that 
corruption is a problem, that providing bribes in contracts and 
allowing companies to deduct those bribes in the normal course 
of business is a mistake.
    My intent is to help develop a direction for aid and other 
programs to deal with these issues. I apologize to those in key 
positions that will have to develop the reports, but I think a 
comprehensive look to those countries, the 10 or 15 countries 
where the problems are most persistent, is important.
    I urge my colleagues to support this bill. At the 
appropriate moment I will have an amendment inspired by Mr. 
Kolbe from Arizona and supported by Ms. Ros-Lehtinen.
    Chairman Gilman. Thank you, Mr. Gejdenson.
     Ms. Ros-Lehtinen is recognized.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. The 
global trading system is under siege by corruption, bribery, 
and fraud. Practices whose corrosive effects undermine the rule 
of law and obstruct the full evolution of democracy and free 
market principles. They further erode economic development as 
foreign investments are squandered or consolidated in the hands 
of a few through cronyism. The multiple instruments of 
corruption present in many emerging markets cost American 
companies millions of dollars each year in lost sales and 
impede their ability to compete freely and fairly.
    One of the most effective means of preventing the spread of 
this disease is to begin to eradicate it, and that is through 
the requirements and guidelines provided for in this bill, H.R. 
4697. This legislation promotes U.S. foreign policy priorities 
of nurturing democracy, fostering economic growth, and 
expanding commercial opportunities. It enables the U.S. 
Congress to respond to the threats posed by corruption by 
linking U.S. development assistance to progress achieved by 
recipient countries in promoting good governance, combating 
corruption, as well as improving transparency and 
accountability in the public and private sector. It authorizes 
the President to establish programs focused on these goals, 
which include support for an independent media, to promote free 
and fair elections, support for establishing audit offices and 
inspector generals, as well as promoting judicial reform and a 
legal framework to promote ethical business practices and many 
others.
    This is an important issue; and as the Chair of the 
Subcommittee on International Economic Policy and Trade, I have 
been working in a bipartisan manner to bring the issue of 
corruption to the forefront and to help move legislation which 
addresses this serious problem. I am proud to be a cosponsor of 
this measure and of a related bill offered by our colleague, 
Mr. Kolbe of Arizona, whose language regarding third-party 
procurement monitoring will be offered as an amendment by Mr. 
Gejdenson. I ask my colleagues to support the amendment and to 
render their support for passage of H.R. 4697.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Ms. Ros-Lehtinen.
    Any other Member seeking recognition? If not, I would like 
to just talk on Mr. Gejdenson's measure.
    I am pleased to cosponsor your measure, a bill introduced 
by the Ranking Member. It amends the Foreign Assistance Act of 
1961 to authorize the President to establish programs to combat 
by promoting principles of good governance designed to enhance 
oversight of private and public programs.
    I concur with Mr. Gejdenson that it is essential for our 
nation to assist emerging democracies by providing governments 
in developing nations with the tools necessary to account for 
the expenditure of public funds and the proper administration 
of government programs. Accountability and transparency in the 
administration of public programs is essential and are 
essential ingredients to instill confidence in government and 
necessary to ensure that democracy flourishes.
    All too often, well-meaning programs and initiatives prove 
ineffective because the tools needed to guarantee their proper 
implementation and administration are lacking. This is an 
especially key problem in those societies without a track 
record of democratic practices and without the institutions 
needed to provide for adequate oversight.
    It is also unquestionable that corruption poses a major 
impediment to sustainable development and deters foreign 
investment in those nations that need it the most. This bill 
addresses this growing problem directly and provides the tools 
needed to fight the corruption that stifles growth and 
democracy in the developing world. Accordingly, this bill 
authorizes the President to create in developing societies 
those very programs that ensure accountability and oversight of 
private and public programs of the United States. I urge its 
adoption.
    Mr. Gejdenson.
    Mr. Gejdenson. Mr. Chairman, I have an amendment at the 
desk.
    Chairman Gilman. The clerk will report the amendment.
    Ms. Bloomer. Amendment offered by Mr. Gejdenson.
    Page 5, line----
    Mr. Gejdenson. I ask unanimous consent that the amendment 
be considered as read.
    Chairman Gilman. Without objection.
    I recognize Mr. Gejdenson on the amendment.
    [The amendment appears in the appendix.]
    Mr. Gejdenson. Mr. Chairman, the amendment simply adds 
third-party monitors of government procurement and supports the 
establishment of audit offices, inspectors general and third-
party monitoring of government procurement process in the 
anticorruption agency. It is an excellent suggestion from Ms. 
Ros-Lehtinen and Mr. Kolbe.
    Chairman Gilman. Is there any discussion on the amendment?
    If not, all in favor of the amendment signify in the usual 
manner. Opposed?
    The amendment is carried.
    Are there any other Members seeking recognition or seeking 
to offer amendments?
    If not, so that the Committee may report the bill we have 
under consideration with a single amendment, the Chair will 
make a unanimous consent request. Without objection, the 
Committee is deemed to have before it an amendment in the 
nature of a substitute consisting of the text of the bill as 
amended at this point. Without objection, the amendment in the 
nature of a substitute is deemed read, the previous question is 
ordered on the amendment, the amendment is adopted. Without 
objection, the previous question is ordered.
    The gentleman from Nebraska, Mr. Bereuter, is recognized to 
offer a motion.
    Mr. Bereuter. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending bill as amended 
on the suspension calendar.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska. Those in favor of the motion, signify 
by saying aye. Those opposed, say no.
    The ayes have it. The motion is agreed to.
    Without objection, the Chair or his designee is authorized 
to make motions under rule XXII with respect to a conference on 
the bill or a counterpart from the Senate. Further proceedings 
on this measure are postponed.


 H. CON. RES. 322--REGARDING SOCIAL AND POLITICAL CONDITIONS IN VIETNAM


    We will now proceed to H. Con. Res. 322 relating to the 
Vietnamese Americans. The Chair lays a resolution before the 
Committee. The clerk will report the title of the resolution.
    Ms. Bloomer. H. Con. Res. 322, a resolution expressing the 
sense of the Congress regarding Vietnamese Americans and others 
who seek to improve social and political conditions in Vietnam.
    Chairman Gilman. This resolution was considered by the 
Subcommittee on Asia and the Pacific, marked up and reported 
with an amendment in the nature of a substitute reflected in a 
document labeled committee print now before the Members. 
Without objection, the subcommittee recommended amendment in 
the nature of a substitute shall be considered as original text 
for the purposes of amendment.
    The clerk will read the preamble and text of the 
subcommittee recommendation in that order.
    Ms. Bloomer. Whereas the Armed Forces of the United 
States----
    [The original and amended bills appear in the appendix.]
    Chairman Gilman. Without objection, the Subcommittee 
recommendation is considered as having been read and is open to 
amendment at any point.
    I now recognize the gentleman from Nebraska, the Chairman 
of the Subcommittee on Asia and the Pacific, Mr. Bereuter, to 
introduce the resolution in the Committee. The gentleman is 
recognized for 5 minutes.
    Mr. Bereuter. Thank you, Mr. Chairman.
    H. Con. Res. 322 was introduced on May 11 by the gentleman 
from Virginia, Mr. Davis, to recognize the Vietnamese who 
fought bravely side by side with U.S. forces in Vietnam and to 
applaud those whose efforts focused international attention on 
human rights violations in Vietnam. The resolution was marked 
up by the Subcommittee on Asia and the Pacific on June 27.
    Each year, on June 19, the Vietnamese American community 
traditionally commemorates those who gave their lives in the 
struggle to preserve the freedom of the former Republic of 
Vietnam. During the war, the armed forces of the Republic of 
Vietnam suffered enormous casualties, including over 250,000 
killed and more than 750,000 wounded. They continued to suffer 
after the fighting ended when many were imprisoned and forced 
to undergo so-called re-education. They continue their efforts 
even now, playing an important role in raising international 
awareness of human rights violations in the Socialist Republic 
of Vietnam.
    Moreover, the Vietnamese American community in the United 
States, many of whom arrived as refugees with little but the 
clothes on their back, has made tremendous achievements and has 
contributed greatly to this country.
    Earlier this year, the Committee passed and the House 
approved Mr. Rohrabacher's H. Con. Res. 295 on human rights and 
political oppression in Vietnam. There inevitably was some 
duplication of the two initiatives. Therefore, this Member, 
with the concurrence of the sponsor of the resolution, the 
gentleman from Virginia, Mr. Davis, offered an amendment in the 
nature of a substitute to H. Con. Res. 322 which eliminated the 
duplication with Mr. Rohrabacher's resolution. This resolution 
therefore now focuses on commemorating the service and 
sacrifices of the former members of the armed forces of the 
Republic of Vietnam. This resolution has many cosponsors on 
both sides of the aisle, including this Member. I would hope 
that all our colleagues will support this laudable resolution.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Mr. Gejdenson.
    Mr. Gejdenson. Mr. Chairman, I join in commending you for 
moving this resolution. It is a good resolution. It recognizes 
the great contribution by the Vietnamese American community and 
their efforts to promote democracy and human rights in Vietnam. 
They are an important part of our society. I hope we move this 
resolution quickly.
    Chairman Gilman. Thank you, Gejdenson.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I 
commend you, and I commend Mr. Bereuter for this.
    As an original cosponsor, I strongly support this 
resolution by Mr. Davis of Virginia, as amended by Mr. 
Bereuter.
    This amendment honors Vietnamese Americans, especially our 
allies who served in the South Vietnamese military during the 
war. For those of us who were in Vietnam--and I spent some time 
in a political operation in Vietnam in 1967 when I was 19 and 
there I witnessed, along with Al Santoli who served in Vietnam 
as a soldier and is on my staff and who won three Purple Hearts 
in Vietnam--we witnessed the post-Cold War, post-Vietnam War 
refugee camps filled with these people who had been our allies 
and had left that country with little more than the clothes on 
their back.
    We have been watching these refugees now and are inspired 
by them. I am very proud that, in my district, I represent 
Little Saigon. They are wonderful people. Many of them, as I 
say, came here with nothing, have now become one of the most 
successful residents of Orange County, and they are very fine 
citizens.
    I am especially impressed with the younger generation of 
Vietnamese Americans, some of whom were born in those refugee 
camps right after the war in Vietnam, others who arrived here 
in the United States later on. These Vietnamese students, the 
younger generation, they excel in their studies, and they have 
become great Americans. Yet they have not forgotten the cause 
of freedom and the suffering of their homeland.
    The abysmal failure of the Communist tyrants who have 
suppressed the Vietnamese people for the past 25 years is in 
stark contrast to the Vietnamese who found refuge in the United 
States and have turned their freedom into prosperity and into 
success and into an admirable life.
    This is a profound evidence that, although what we were 
trying to do in Vietnam was defeat communism and we were not 
successful, that it was a noble cause, as Ronald Reagan called 
it in Vietnam, and that we were trying to give those people the 
opportunity to live in freedom. When they have it, as they have 
in the United States, they excel and they enjoy the freedom and 
are good citizens and are very responsible.
    This resolution calls attention to the hard work and 
commitment to education and the hard work of first generation 
Vietnamese Americans, offering both a tribute to these new 
Americans and encouragement to never give up the struggle for 
human dignity.
    Again, this does salute the soldiers who fought in Vietnam 
at our side. There is a memorial being built in my district to 
those proud Vietnamese soldiers who may have lost on the 
battlefield but someday will win the war for freedom in their 
country by offering a great example for freedom.
    Thank you very much, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Rohrabacher.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    I want to commend Congressman Davis for this resolution, 
which makes clear that the U.S. Congress supports the efforts 
of the Vietnamese American community in calling attention to 
the need for human rights and democracy.
    I know some language has been stripped out of this. 
Frankly, I think that is unfortunate. A little redundancy in 
calling attention to human rights abuses I think advances the 
ball, so I think that is unfortunate it was taken out.
    But I do think it is important in this debate and 
especially on the floor that we speak about the fact that when 
Mr. Rohrabacher's amendment or resolution passed 418-2, our 
Ambassador to Vietnam was quoted as saying that it only 
reflects the views of a minority of Americans. I hope that he 
was misquoted, but I am deeply concerned that the Vietnamese 
Government may get the wrong message from those kinds of 
reports about our Ambassador's remarks. Hopefully, when we take 
this to the floor, it will not again be misconstrued.
    If we do not raise in a very tangible way the ongoing human 
rights abuses that are occurring there--we can gloss over it, 
we have done that before, in country after country--it is 
unfortunate for those who suffer in prisons, for those who find 
themselves being persecuted because of their religious beliefs, 
those who are victimized by the two-child-per-couple policy. In 
addition, Vietnam continues to jam Radio Free Asia. If they are 
such great friends, why not become more open to other points of 
view?
    So I do think we need to bring attention to it. Mr. 
Rohrabacher did. But, regrettably, our Ambassador, maybe 
unwittingly, certainly undermined the clear message that 418 
members sent to the Vietnamese Government.
    I do thank Mr. Davis again for offering this resolution.
    Chairman Gilman. Thank you, Mr. Smith.
    I want to join in commending the gentleman from Virginia, 
Mr. Davis, for introducing this measure expressing the sense of 
Congress regarding the sacrifices of those who served in the 
armed forces in the former Republic of Vietnam.
    I would like to thank the Chairman of the Asia Pacific 
Subcommittee, Mr. Bereuter, for his work in crafting the 
current language in the resolution. It is truly regrettable 
that, 10 years after the end of the Cold War, the Socialist 
Republic of Vietnam is still a one-party state ruled and 
controlled by a Communist party which represses political and 
religious freedoms and commits numerous human rights abuses. It 
is appropriate that we recognize those who fought to oppose 
that tyranny which has fallen across Vietnam, and those who 
continue the vigil of struggling for freedom and democracy 
there.
    I urge Hanoi to cease violations of human rights and to 
undertake the long-overdue liberalization of its moribund and 
stifling political system. The people of Vietnam clearly 
deserve better.
    Finally, I call upon the Vietnamese Government to do all it 
can unilaterally to assist in bringing our POW/MIA's to a full 
accounting, to be able to return to American soil with all the 
information they have.
    I want to praise this resolution for pointing out the 
injustice that tragically exists in Vietnam today. I commend 
Mr. Davis for introducing this resolution, his commitment to 
human rights and democracy in Vietnam. Accordingly, I request 
to be added to the list of cosponsors of the resolution.
    I look forward to bringing the resolution to the floor at 
an early date.
    Is there any further debate or amendment on the 
subcommittee recommendation?
    If not, the question is on agreeing to the subcommittee 
recommendation as amended. As many as are in favor of the 
amendment, signify by saying aye. As many as opposed, signify 
by saying no.
    The amendment is agreed to.
    The gentleman from Nebraska, Mr. Bereuter, is recognized to 
offer a motion.
    Mr. Bereuter. I move that the Chairman be requested to seek 
consideration of the pending bill as amended on the suspension 
calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from Nebraska. As many as are in favor, signify in 
the usual manner. As many as are opposed, say no.
    The ayes have it. The motion is agreed to. Without 
objection, the Chair or his designee is authorized to make 
motions under rule XXII with respect to a conference on the 
resolution or a counterpart from the Senate.


 REOPENING OF H.R._____--THE DEFENSE AND SECURITY 
                         ASSISTANCE ACT OF 2000


    Mr. Gejdenson. Mr. Chairman, I ask unanimous consent that 
we reopen the first bill--the Security Assistance Act--so that 
the gentleman from California can offer an amendment to which I 
will have an amendment at this time. I think it is only fair to 
Members who are here to make sure that we get a full discussion 
of this issue. So I ask unanimous consent if we could reopen 
that security assistance legislation at this time.
    Chairman Gilman. We now have a unanimous consent request by 
Mr. Gejdenson before the Committee. Is there an objection? If 
there is no objection, we will now reopen the committee print 
for further amendment, and initiate its earlier passage.
    Mr. Rohrabacher is recognized for a motion.
    Mr. Rohrabacher. Mr. Chairman, I have an amendment at the 
desk. It is my understanding that we have finished the 
consideration. I appreciate Mr. Gejdenson's unanimous consent 
permitting me the opportunity to offer my amendment. It should 
be there at the desk.
    Chairman Gilman. The clerk will report.
    Ms. Bloomer. Amendment offered by Mr. Rohrabacher.
    At the appropriate place in the bill insert the following, 
(c), notification relating to export of commercial 
communication satellite. Section 36(c)(1) of the Arms Export 
Control Act is amended in the first sentence by inserting at 
the end before the period the following: Except that a 
certification shall not be required in the case of application 
for a license for export of a commercial communications 
satellite designated on the United States munitions list for 
launch from and by action of the United States or the territory 
of another country, the North Atlantic Treaty Organization, 
Australia, Japan or New Zealand.
    [The amendment appears in the appendix.]
    Chairman Gilman. The gentleman is recognized on his 
proposal.
    Mr. Rohrabacher. Mr. Chairman, first of all, let me say 
that I am a Member of this Committee, yes, but I am also the 
Chairman of the Space and Aeronautics Subcommittee of the 
Science Committee, so I deal with the satellite issues and 
missile and rocket issues in terms of the technology a great 
deal of my time.
    As we are all aware, we have had problems with China which 
this Congress dealt with in dealing with a leakage of 
information to China of technical information about American 
rocketry as part of their satellite program and the sale of 
satellites to China. Unfortunately, we passed a law that has 
been implemented by the Administration in a way that it has 
done great damage to people who are trying to deal in these 
high technology industries with countries that are friendly and 
pose no threat to the United States of America. So, in order 
for us to deal with China, which we were trying to do, this 
Administration unfortunately has been interpreting that law and 
the powers given to it in a way that seriously undermines the 
trade of high-tech commerce with friendly countries.
    My amendment is designed to facilitate that trade, to make 
sure that people and our NATO allies and countries that don't 
pose a threat to the United States don't have to jump through 
so many hoops so that we don't lose these satellite sales. It 
waives notification to the Congress when we are dealing with 
NATO countries and friendly countries, and it sets up a 
licensing process that actually expedites the export and trade 
to our friends and allies.
    Mr. Berman. Will the gentleman yield?
    Mr. Rohrabacher. I certainly would.
    Mr. Berman. Who administers that licensing process?
    Mr. Rohrabacher. Who administers that licensing process?
    Mr. Berman. Yes--that which you described as being set up.
    Mr. Rohrabacher. That is being set up?
    Mr. Berman. Yes.
    Mr. Rohrabacher. The State Department.
    Mr. Berman. You are going to entrust to the State 
Department the licensing of commercial satellites? Is that the 
same State Department that is working against our interests in 
Panama and Afghanistan?
    Mr. Rohrabacher. That is right. And they are winking all 
the way down the road.
    Mr. Gejdenson. Will the gentleman yield?
    Mr. Rohrabacher. Yes.
    Mr. Gejdenson. I am impressed by the gentleman's 
creativity. The gentleman can't condemn the Administration for 
doing what Congress forced them to do by moving the licensing 
process to State where we have now lost a 36 percent market 
share in this area. I want to join with the gentleman.
    I am going to have a friendly amendment.
    Mr. Rohrabacher. Could I finish my opening statement first, 
and then I will be very happy to hear about the amendment.
    Reclaiming my time, let me just say that I never have been 
opposed to high technology satellite sales to countries that 
are friendly to the United States. This Congress was 
justifiably concerned that there were technology transfers to 
countries like Communist China. That is not a strategic 
partner, but instead a potential enemy of the United States. 
This resolution today--or this amendment will permit this type 
of trade and deal with a loss that you will explain when you 
are advocating your amendment, a loss of jobs, a loss of deals 
that would have been very important to our country's and those 
industries' success. That is the purpose of this amendment.
    I appreciate Mr. Gejdenson asking for unanimous consent to 
permit me to offer this amendment.
    Chairman Gilman. Will the gentleman yield?
    Mr. Rohrabacher. Be happy to yield.
    Chairman Gilman. I just would like to state that I support 
the gentleman's amendment, it follows up on the good work of 
the gentleman from California, his efforts to ensure our 
satellite companies are not going to be put at a competitive 
disadvantage as a result of the munitions licensing process. I 
urge our colleagues to support the gentleman's amendment.
    I thank the gentleman for yielding.
    Mr. Gejdenson.
    Mr. Gejdenson. Mr. Chairman, I have an amendment to the 
amendment.
    Chairman Gilman. The clerk will read the amendment.
    Ms. Bloomer. Amendment offered by Mr. Gejdenson.
    On line 11 after NATO, insert ``Russian Federation, 
Ukraine.''
    [The amendment appears in the appendix.]
    Chairman Gilman. The gentleman is recognized on his 
amendment.
    Mr. Gejdenson. As Mr. Rohrabacher indicated, we have lost a 
36 percent share in this area in a year, almost an unheard of 
shrinking of America's market share. These two particular 
countries, as the gentleman pointed out earlier, are not the 
ones that created the great concern. China was the great 
concern. What we are doing here is simply providing for the 
removal of the 30-day waiting period only if DOD and State have 
approved it. I would hope the gentleman could accept my 
amendment which further tries to rectify the situation; and, 
hopefully, the American companies, frankly, are advantaged more 
by this part of the amendment in many ways than even the 
gentleman's original amendment.
    Chairman Gilman. I would like to note that I oppose the 
gentleman's amendment. I don't support waiving congressional 
notifications for launches involving Russian entities. These 
entities have been and some believe are still involved in 
proliferating missile technology to Iran.
    So let's be absolutely clear that what the Gejdenson 
amendment is all about. It is about whether we should control 
commercial communications satellites on the munitions list or 
on the commodities control list. Mr. Gejdenson believes they 
are dual use and should be controlled by Commerce. I believe, 
along with the majority in the Congress, as evidenced by our 
vote 2 years ago to move these satellites under the 
jurisdiction of the State Department, these satellites should 
be controlled as munitions.
    This is an amendment which would gut the measure, because 
there is no way the majority of Members will agree to waive our 
rights to review exports of satellites to be launched by 
Russian or Ukrainian nationals. Waiving a congressional 
notification for the export of satellites for launching by 
nationals of NATO is one thing, but waiving congressional 
notification for the export of satellites for launching by 
nationals of Russia and Ukraine is entirely another matter. 
Accordingly, I will be opposing Mr. Gejdenson's amendment.
    Who seeks recognition? Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman.
    Mr. Chairman, I reluctantly have to disagree and would hope 
that you would reconsider your opposition. I support the 
amendment to the amendment and the amendment itself, the 
underlying amendment, because I believe that we have in place 
at the present time a mechanism that will fully guarantee the 
security issues that you are concerned about and that I 
certainly share.
    I would never support anything that I believed would 
jeopardize those issues in any way, shape or form. But what we 
are doing here is simply waiving notification to the Congress. 
Quite frankly, we have never exercised this particular power in 
a way that would, in fact, be a security-related issue. We have 
sometimes stopped it but not because of security issues, for 
political issues.
    That has been problematic. It continues to be problematic 
for our companies in the United States. If we do it just for 
the countries in the underlying amendment, then companies in 
the United States, certain companies are put at a disadvantage. 
So it is to me important to try to level the economic and 
competitive playing field here and not at the same time do 
anything that would jeopardize the national security interests 
of the United States.
    When you look at what has to happen with every one of these 
applications, what it has to go through before it ever gets to 
Congress and what we are not touching--we are not going to deal 
with that aspect of it at all. We are just talking about 
congressional oversight here, which has, frankly, been 
superfluous. I do support the Gejdenson amendment and would 
hope that my colleagues would do likewise.
    Chairman Gilman. Is there anyone else seeking recognition?
    Mr. Manzullo.
    Mr. Manzullo. Mr. Chairman, I speak in favor of the 
Rohrabacher amendment and the Gejdenson amendment. The transfer 
of licensing of these satellites to the State Department has 
been nothing less than disastrous. The purpose of the Gejdenson 
amendment would really be to put all of our nation's satellite 
manufacturers on an equal footing. All it does is simply waive 
notice to Congress, which no one reads, anyway.
    The reason for both of these amendments is to expedite this 
process which this body put into practice over my objection by 
transferring licensing of these satellites from the Commerce 
Department to the State Department. We have lost a 40 percent 
market share. What this amendment will do is still maintain the 
security, if you consider the State Department to be an 
efficient agency to do that, but simply waive the notice to 
Congress. I would encourage the Chairman to allow the Gejdenson 
amendment to the Rohrabacher amendment.
    Chairman Gilman. Is any other Member seeking recognition?
    If not, the question is now on the Gejdenson amendment to 
the Rohrabacher amendment. All in favor of the Gejdenson 
amendment to the Rohrabacher amendment, signify in the usual 
manner. Opposed?
    The ayes have it.
    We will now have a rollcall vote. The clerk will call the 
roll.
    Ms. Bloomer. Mr. Chairman.
    Chairman Gilman. No.
    Ms. Bloomer. Mr. Chairman votes no.
    Mr. Goodling.
    [No response.]
    Ms. Bloomer. Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Bereuter.
    [No response.]
    Ms. Bloomer. Mr. Smith.
    Mr. Smith. No.
    Ms. Bloomer. Mr. Smith votes no.
    Mr. Burton.
    [No response.]
    Ms. Bloomer. Mr. Gallegly.
    [No response.]
    Ms. Bloomer. Ms. Ros-Lehtinen.
    [No response.]
    Ms. Bloomer. Mr. Bereuter.
    Mr. Bereuter. No.
    Ms. Bloomer. Mr. Bereuter votes no.
    Mr. Ballenger.
    [No response.]
    Mr. Tancredo. Mr. Chairman, I have a point of order.
    Chairman Gilman. The gentleman will state his point of 
order.
    Mr. Tancredo. Are we voting on the amendment, the 
underlying amendment or the amendment to the amendment?
    Chairman Gilman. We are voting on the Gejdenson amendment 
to the Rohrabacher amendment.
    Mr. Tancredo. Thank you, Mr. Chairman.
    Ms. Bloomer. Mr. Rohrabacher.
    [No response.]
    Ms. Bloomer. Mr. Manzullo.
    Mr. Manzullo. Aye.
    Ms. Bloomer. Mr. Manzullo votes yes.
    Mr. Royce.
    [No response.]
    Ms. Bloomer. Mr. King.
    [No response.]
    Ms. Bloomer. Mr. Chabot.
    [No response.]
    Ms. Bloomer. Mr. Sanford.
    [No response.]
    Ms. Bloomer. Mr. Salmon.
    Mr. Salmon. No.
    Ms. Bloomer. Mr. Salmon votes no.
    Mr. Houghton.
    [No response.]
    Ms. Bloomer. Mr. Campbell.
    [No response.]
    Ms. Bloomer. Mr. McHugh.
    [No response.]
    Ms. Bloomer. Mr. Brady.
    Mr. Brady. Aye.
    Ms. Bloomer. Mr. Brady votes yes.
    Mr. Burr.
    [No response.]
    Ms. Bloomer. Mr. Gillmor.
    Mr. Gillmor. No.
    Ms. Bloomer. Mr. Gillmor votes no.
    Mr. Radanovich.
    [No response.]
    Ms. Bloomer. Mr. Cooksey.
    [No response.]
    Ms. Bloomer. Mr. Tancredo.
    Mr. Tancredo. Aye.
    Ms. Bloomer. Mr. Tancredo votes yes.
    Mr. Gejdenson.
    Mr. Gejdenson. Aye.
    Ms. Bloomer. Mr. Gejdenson votes yes.
    Mr. Lantos.
    Mr. Lantos. Aye.
    Ms. Bloomer. Mr. Lantos votes yes.
    Mr. Berman.
    Mr. Berman. Aye.
    Ms. Bloomer. Mr. Berman votes yes.
    Mr. Ackerman.
    Mr. Ackerman. Aye.
    Ms. Bloomer. Mr. Ackerman votes yes.
    Mr. Faleomavaega.
    [No response.]
    Ms. Bloomer. Mr. Martinez.
    [No response.]
    Ms. Bloomer. Mr. Payne.
    Mr. Payne. Aye.
    Ms. Bloomer. Mr. Payne votes yes.
    Mr. Menendez.
    [No response.]
    Ms. Bloomer. Mr. Brown.
    [No response.]
    Ms. Bloomer. Ms. McKinney.
    [No response.]
    Ms. Bloomer. Mr. Hastings.
    Mr. Hastings. Aye.
    Ms. Bloomer. Mr. Hastings votes yes.
    Ms. Danner.
    Ms. Danner. Aye.
    Ms. Bloomer. Ms. Danner votes yes.
    Mr. Hilliard.
    [No response.]
    Ms. Bloomer. Mr. Sherman.
    Mr. Sherman. Aye.
    Ms. Bloomer. Mr. Sherman votes yes.
    Mr. Wexler.
    [No response.]
    Ms. Bloomer. Mr. Rothman.
    Mr. Rothman. Aye.
    Ms. Bloomer. Mr. Rothman votes yes.
    Mr. Davis.
    Mr. Davis. Aye.
    Ms. Bloomer. Mr. Davis votes yes.
    Mr. Pomeroy.
    Mr. Pomeroy. Aye.
    Ms. Bloomer. Mr. Pomeroy votes yes.
    Mr. Delahunt.
    Mr. Delahunt. Aye.
    Ms. Bloomer. Mr. Delahunt votes yes.
    Mr. Meeks.
    Mr. Meeks. Aye.
    Ms. Bloomer. Mr. Meeks votes yes.
    Ms. Lee.
    Ms. Lee. Aye.
    Ms. Bloomer. Ms. Lee votes yes.
    Mr. Crowley.
    Mr. Crowley. Aye.
    Ms. Bloomer. Mr. Crowley votes yes.
    Mr. Hoeffel.
    Mr. Hoeffel. Aye.
    Ms. Bloomer. Mr. Hoeffel votes yes.
    Chairman Gilman. The clerk will call the absentees.
    Ms. Bloomer. Mr. Goodling.
    [No response.]
    Ms. Bloomer. Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Burton.
    [No response.]
    Ms. Bloomer. Mr. Gallegly.
    [No response.]
    Ms. Bloomer. Ms. Ros-Lehtinen.
    [No response.]
    Ms. Bloomer. Mr. Ballenger.
    [No response.]
    Ms. Bloomer. Mr. Rohrabacher.
    Mr. Rohrabacher. Pass.
    Ms. Bloomer. Mr. Rohrabacher passes.
    Mr. Royce.
    Mr. Royce. No.
    Ms. Bloomer. Mr. Royce votes no.
    Mr. King.
    [No response.]
    Ms. Bloomer. Mr. Chabot.
    [No response.]
    Ms. Bloomer. Mr. Sanford.
    [No response.]
    Ms. Bloomer. Mr. Houghton.
    [No response.]
    Ms. Bloomer. Mr. Campbell.
    [No response.]
    Ms. Bloomer. Mr. McHugh.
    [No response.]
    Ms. Bloomer. Mr. Burr.
    [No response.]
    Ms. Bloomer. Mr. Radanovich.
    [No response.]
    Ms. Bloomer. Mr. Cooksey.
    Mr. Cooksey. Yes.
    Ms. Bloomer. Mr. Cooksey votes yes.
    Mr. Faleomavaega.
    [No response.]
    Ms. Bloomer. Mr. Martinez.
    [No response.]
    Ms. Bloomer. Mr. Menendez.
    Mr. Menendez. Aye.
    Ms. Bloomer. Mr. Menendez votes yes.
    Mr. Brown.
    Mr. Brown. Yes.
    Ms. Bloomer. Mr. Brown votes yes.
    Ms. McKinney.
    [No response.]
    Ms. Bloomer. Mr. Hilliard.
    Mr. Hilliard. Aye.
    Ms. Bloomer. Mr. Hilliard votes yes.
    Mr. Wexler.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    Mr. Hyde. No.
    Ms. Bloomer. Mr. Hyde votes no.
    Chairman Gilman. Is there any Member whose name has not 
been called? Among the absentees, everyone has voted? If not, 
the clerk will report.
    Ms. Bloomer. On this vote, 23 ayes, 7 noes, and 1 present.
    Chairman Gilman. The amendment is agreed to.
    Mr. Bereuter. Mr. Chairman, I have an amendment at the 
desk.
    Chairman Gilman. Will you hold just a moment? We first will 
have to vote on the Rohrabacher amendment, the amendment as 
amended.
    All in favor of the Rohrabacher amendment, as amended, 
signify in the usual manner.
    Opposed?
    The Rohrabacher amendment is carried.
    Mr. Bereuter is recognized for his amendment.
    Ms. Bloomer. Amendment offered by Mr. Bereuter. Diplomatic 
Telecommunications Service. Notwithstanding any other provision 
of law, no amounts authorized to be appropriated for fiscal 
year 2001 in the Admiral----
    Mr. Bereuter. Mr. Chairman, I ask unanimous consent that 
the amendment be considered as read.
    Chairman Gilman. Without objection, the amendment is 
considered as having been read.
    The gentleman is recognized on the amendment.
    [The amendment appears in the appendix.]
    Mr. Bereuter. Mr. Chairman, I intended to offer this 
amendment earlier but arrived too late to do it. This amendment 
does not relate to the previous one, but it is a matter that I 
think should be approved.
    The issue being raised by me is because of the 
jurisdictional and I think good government concerns related to 
sensitive telecommunications capabilities to and from our 
diplomatic posts abroad.
    In the early 1990's--I think it was fiscal year 1991--as a 
cost-saving reduction of duplication effort, the Congress 
required that State and the CIA harmonize their classified 
communications. We are talking about their capabilities for 
classified communications. Since that time, State has spent 
more than $300 million to upgrade jointly operated 
telecommunications facilities. The CIA has spent considerably 
less. The Agency sites intolerable risks associated with this 
current arrangement but refuses to explain what those 
intolerable conditions might be. They have refused to provide 
the congressionally mandated reports on this issue, which is 
the source of----
    Chairman Gilman. If the gentleman will withhold. The 
Committee is not in order. The gentleman should be recognized 
to present his argument. The Committee is not in order.
    The gentleman may proceed.
    Mr. Bereuter. Thank you, Mr. Chairman.
    In this year's intelligence authorization, the House 
Permanent Select Committee on Intelligence [HPSCI], included in 
its code word level classified report but not as a classified 
item a requirement that all these assets be turned over to the 
operations of the CIA. This language which I offer--language, 
pardon me, which is in that legislation I think throws down a 
marker that the State Department should not be summarily 
stripped of this responsibility, particularly without 
compensation. The language that I am offering says that the 
responsibility should not be changed and allows the committees 
of jurisdiction like this one to consider this matter more 
fully when the facts are made available.
    Mr. Chairman, I know that you have taken some action by 
letter on June 29 addressed to the Chairman and the Ranking 
Minority Member of the Permanent Select Committee on 
Intelligence. Your staff is hoping that, in fact, we might be 
able to work that out. But I think it is important that we 
aggressively defend our jurisdiction.
    I do not understand nor have we any basis for understanding 
why CIA wants to abandon this joint effort which has been 
approved by the Congress back in fiscal year 1991 and simply, 
very quietly, authorizing abandonment of the program.
    The agency under our jurisdiction, the State Department, as 
I have mentioned, has spent over $300 million to implement the 
program; and now suddenly to have it pulled away I think is 
probably just an opportunistic move by the Central Intelligence 
Agency, at a time when State is suffering from considerable 
criticism of its admittedly very bad security practices, to 
take advantage of that situation and in a turf battle pull the 
rug out from under this joint effort.
    Until we have better information, and until the CIA 
provides the mandated reports to justify why that would be done 
in the intelligence authorization bill this year, I think we 
should assert ourselves. One way to put ourselves back into the 
argument is to include this provision that I am suggesting.
    Mr. Gejdenson. Will the gentleman yield?
    Mr. Bereuter. I yield to the gentleman.
    Mr. Gejdenson. The gentleman's amendment is an excellent 
amendment. I urge its adoption.
    Mr. Bereuter. I thank the gentleman.
    Unless there are questions, I yield back.
    Chairman Gilman. Will the gentleman yield?
    Mr. Bereuter. I am pleased to yield.
    Chairman Gilman. I appreciate the gentleman's comments and 
concerns. This is an important issue, one in which we share 
jurisdiction with the Intelligence Committee.
    I have spoken and written to Chairman Goss about our 
concerns, and I feel confident that he will work with us to try 
to craft a solution on the telecommunications system that 
reflects the interests of the State Department and the 
inquiries of the concerned parties. I believe that the 
gentleman has a copy of our letter that was jointly signed by 
Mr. Gejdenson and myself and sent to Chairman Goss underscoring 
our strong commitment to the part of any solution in the 
telecommunications----
    [A copy of the letter appears in the appendix.]
    Mr. Bereuter. Mr. Chairman, I received it a few minutes 
ago, yes.
    Chairman Gilman. Thank you.
    I also want to state that this really is an interagency 
matter that should be handled by OMB. I do believe that they 
are now engaging in this matter. I hope that it will prove to 
be a meaningful review. Therefore, I respectfully request the 
gentleman to consider withdrawing his amendment to give us an 
opportunity to further explore this with the Intelligence 
Committee.
    Mr. Bereuter. Mr. Chairman, may I ask a question? 
Reclaiming my time, I would like to ask a question.
    In light of the Gejdenson amendment to the Rohrabacher 
amendment, it would appear to me that this bill is 
inappropriate to take on the suspension calendar. If, in fact, 
it will not be going on the suspension calendar, then I would 
have the opportunity to offer this amendment on the House floor 
if, in fact, the Intelligence Committee does not cooperate with 
us. Therefore, I would be more likely to certainly bow to the 
Chairman's wisdom on this.
    Can you tell me if, in fact, we now are likely to take this 
on the suspension calendar? I know I will not be voting to take 
it on the suspension calendar myself.
    Chairman Gilman. With regard to the gentleman's request, we 
certainly will reserve our decision on that. We will take into 
consideration the gentleman's request before we go to the Rules 
Committee with that.
    Mr. Bereuter. Mr. Chairman, I would like to pose a 
parliamentary inquiry.
    Chairman Gilman. Please present your inquiry.
    Mr. Bereuter. At the end of this amendment or any other 
amendments offered to this bill, what will be the suggested 
motion to advance the bill? Will it be the suspension calendar 
or just the normal approval or disapproval?
    Chairman Gilman. Let me discuss that with our 
Parliamentarian here.
    [Brief pause.]
    Chairman Gilman. Mr. Bereuter, we will try to work out a 
procedure for taking it before the Rules Committee. At this 
point, we don't have a bill that has been introduced yet, but 
we will take it up----
    Mr. Bereuter. Mr. Chairman, may I ask further--I would 
like, if I may, to continue.
    Chairman Gilman. Please proceed.
    Mr. Bereuter. I would like to ask you this question. Would 
the Chairman agree that my amendment, if adopted, strengthens 
your amendment with respect or vis-a-vis the HPSCI?
    Chairman Gilman. If it were adopted on the floor, yes.
    Mr. Bereuter. If it was adopted here, wouldn't it improve 
your bargaining power?
    Chairman Gilman. We have had a lengthy discussion with the 
HPSCI Committee. We had agreed that we will try to work out 
something together with HPSCI.
    Mr. Bereuter. Mr. Chairman, I think deference is due a 
chairman. I was unaware of that agreement. I will defer to the 
Chairman's decision. I hope you will convey to Mr. Goss that I 
am doing this----
    Mr. Gejdenson. Will the gentleman yield?
    Mr. Bereuter. I would be pleased to yield to the gentleman.
    Mr. Gejdenson. Maybe what we ought to do here is accept the 
gentleman's amendment. And then if we have between now and 
Rules to work something out with the Intelligence Committee, 
hopefully, or go to suspension. So if we accept the gentleman's 
amendment, we can make that decision at a later date.
    Mr. Bereuter. Would that be acceptable to the Chairman?
    Chairman Gilman. I would have no objection to that.
    Mr. Manzullo. I have a parliamentary inquiry.
    Chairman Gilman. State your inquiry.
    Mr. Manzullo. My understanding is that, when this bill was 
passed, it was adopted upon motion that it go on the suspension 
calendar. Is that correct?
    Chairman Gilman. That is correct.
    Mr. Manzullo. Then the bill was opened up for the purpose 
of amendments only. Therefore, there has already been a vote on 
how the bill proceeds to the floor.
    Chairman Gilman. The Chair will discuss that with our 
Parliamentarian.
    I would ask the Parliamentarian to respond.
    Mr. Weinberg. Mr. Chairman, if I understood the question 
correctly, the import of the unanimous consent request that was 
agreed to earlier was to vitiate the action of the Committee, 
in the motion that was made by Mr. Bereuter, which was that 
when the bill is introduced--and it hasn't been introduced 
yet--that the Chairman would move, without further action of 
the Committee, to move it on suspension. If I could add, I 
think the anticipated point is that we can't actually move the 
bill to the floor under a motion to report at this point 
because we don't have a bill that has been referred to us at 
this point. We only have the committee print.
    Chairman Gilman. Mr. Manzullo.
    Mr. Manzullo. We are proceeding on the committee print 
here, not a bill?
    Chairman Gilman. That is right.
    Mr. Manzullo. Is this the difference between up and down or 
what? I don't understand. Maybe you could explain that to me.
    Chairman Gilman. Mr. Weinberg.
    Mr. Manzullo. This looks like a bill to me. It says a bill.
    Mr. Weinberg. If you notice, it has not been referred to 
the Committee. The practice of the Committee--it is not 
universal but it is something that has occurred here certainly 
in prior years--is that we would operate with a committee 
print. Then at the conclusion, at some point, the bill would be 
introduced; and we would come back and have a----
    Mr. Manzullo. We are going to have a second markup of the 
full bill?
    Mr. Weinberg. If the rule of the Committee is to order it 
reported, that would have to be what we do. That is why, if I 
may, Mr. Chairman, at the end of our proceedings on these 
motions, when we move to ask the Chairman to suspend the rules, 
and we suspend further proceedings. Because we could come back 
and make a different disposition of the bill at that point.
    Chairman Gilman. I recognize Judge Hastings.
    Mr. Hastings. Mr. Chairman, I move to strike the last word.
    Chairman Gilman. The gentleman is recognized.
    Mr. Hastings. Mr. Chairman, like my colleague from 
Nebraska, I would defer to the will of the Chair with reference 
to all matters as well as the fact that the Ranking Member has 
asserted that it may be in the best interest for us to pursue, 
as the gentleman from Nebraska said, this Committee's position 
by having appropriate leverage as offered by his amendment. I 
would ask the gentleman, however, to revisit that as well as 
the Ranking Member.
    While I bring no special expertise to the table, 
coincidence has it that I am the only Member that serves on the 
House Intelligence Committee and the International Relations 
Committee; and I do know that a considerable amount of work has 
been done by the Chair and the Ranking Member along with the 
Chair and the Ranking Member of House Intelligence. I really do 
trust that they will cover the jurisdictional concerns that the 
gentleman has raised. I think to embed that in legislation is 
to repudiate in some respects what the Chair and the Ranking 
Member have already accomplished. That would be my position.
    Mr. Bereuter. Will the gentleman yield?
    Mr. Hastings. Yes.
    Mr. Bereuter. That sounds very logical except HPSCI moved 
ahead without consultation and put into the authorization bill 
something that eliminates something we began as a Congress in 
1991. That shows a lack of good faith or a failure to 
communicate.
    Mr. Hastings. Reclaiming my time, I certainly take the 
gentleman's point. However, I think that that is exactly what 
the Chair and Ranking Member have been about, and that is what 
you suggested we should do, and that is aggressively pursue the 
jurisdictional confines of this Committee. I thoroughly agree. 
I just think that, as a matter of course, we are going to be 
back to the other committee counterparts and now saying 
something different than what had been pretty much negotiated 
in good faith today.
    Mr. Bereuter. Would the gentleman yield one more time?
    Mr. Hastings. Yes.
    Mr. Bereuter. Just to clarify my position, I have accepted 
the assurances of the Chairman and the Ranking Member. 
Therefore, I ask unanimous consent to withdraw the amendment.
    Chairman Gilman. The amendment is withdrawn. I thank the 
gentleman.
    Mr. Manzullo. Mr. Chairman, I have a parliamentary inquiry.
    Chairman Gilman. The gentleman will state it.
    Mr. Manzullo. Is it my understanding that this Committee 
draft as amended is going to be considered by the Intelligence 
Committee and then come back here in the form of a bill?
    Chairman Gilman. No.
    Mr. Manzullo. Could you state exactly the procedure that is 
going to happen?
    Chairman Gilman. Mr. Bereuter, you want to state what you 
would like to see accomplished now?
    Mr. Bereuter. Mr. Chairman, any involvement of the 
Intelligence Committee with this bill has been set aside by my 
withdrawal of the amendment. We are simply faced with what 
action this Committee should take to advance this legislation.
    I think what the Parliamentarian said a minute or two ago 
is that, by opening up the bill and taking further action on 
it, our previous action to give disposition to the bill has 
been set aside because we have now introduced and passed an 
amended amendment which, of course, changes the status of the 
legislation as far as some Members are concerned. But whether 
or not it changes the status by introducing a new amendment 
which in fact passed and changed the nature of the bill, that 
now it is up to the Committee to decide how it will dispose of 
the bill, because the bill is ripe to move or to be defeated.
    Mr. Manzullo. So we are at a point now----
    Mr. Bereuter. The only further problem is that we have no 
bill before us. We have a committee print. Therefore, the 
previous motion was simply what the Chairman was authorized to 
do, to take the committee print in bill form and move it on 
suspension calendar.
    Mr. Manzullo. I appreciate the response. However, I still 
don't know where we go from here.
    Chairman Gilman. Mr. Smith.
    Mr. Smith. Mr. Chairman, I move that after introduction of 
the pending bill that the Chairman be requested to seek its 
consideration as amended on the suspension calendar.
    Chairman Gilman. The question is the motion of the 
gentleman from New Jersey. Those in favor of the motion, 
signify by saying aye. Those opposed, say no.
    The ayes have it. The motion is agreed to.
    Further proceedings on the motion are postponed. In the 
interim, we will have further discussions with HPSCI to try to 
work out our problems.


H.R. 4002--FAMINE PREVENTION AND FREEDOM FROM HUNGER IMPROVEMENT ACT OF 
                                  2000


    We will now move to H.R. 4002, to improve provisions 
relating to famine prevention and freedom from hunger. The 
Chair lays the bill before the Committee. The clerk will report 
the title of the bill.
    Ms. Bloomer. H.R. 4002, to amend the Foreign Assistance Act 
of 1961 to revise and improve provisions relating to famine 
prevention and freedom from hunger.
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with.
    The clerk will read the bill for amendment.
    Ms. Bloomer. Be it enacted by the Senate and House of 
Representatives of the United States of America in Congress 
assembled, Section 1. Short Title.
    [The bill appears in the appendix.]
    Chairman Gilman. I have an amendment in the nature of a 
substitute at the desk that I am offering on behalf of myself, 
Mr. Gejdenson and the bill's sponsors. The clerk will report 
the amendment.
    Ms. Bloomer. Amendment Offered by Mr. Gilman:
    Strike all after the enacting clause and insert the 
following----
    Chairman Gilman. Without objection, further reading of the 
amendment will be dispensed with.
    [The amendment appears in the appendix.]
    Chairman Gilman. Without objection, the bill will be deemed 
to be original text for the purpose of amendment. The amendment 
makes several technical changes that as I mentioned have been 
agreed upon. I will withhold my comments and recognize the 
sponsor of the bill, Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman. I have asked unanimous 
consent to present my full statement for the record so I can be 
very brief here.
    Mr. Chairman, I support your amendment in the nature of a 
substitute. It contains mainly technical changes. I introduced 
this legislation on behalf of the gentleman from Florida, Mr. 
Davis, who is the lead Democrat, on behalf of the gentleman 
from Nebraska, Mr. Bereuter, who was the other original 
cosponsor. Their staffs as well as the majority and minority 
staffs of this Committee deserve our thanks for the hard work 
they have done on this.
    I also want to thank one of my constituents, Dr. Ed Price 
from Texas A&M University, who came in with the framework for 
this legislation. He is overseas and could not be with us. 
Without his help, we would not be here today.
    The Famine Prevention and Freedom From Hunger Act was 
enacted in 1975. It had two goals--to increase world food 
production and then to deal with nutrition problems for our 
developing countries. The good news is that we have reached the 
goal on increasing world food production, but we still have a 
way to go on making the food healthy and nutritious. We address 
this in this bill by updating that title, title XII.
    It is a win-win situation. It is a win for developing 
countries because we tap the resources of our universities to 
address nutrition and food problems in those countries. It is a 
win for our agricultural community here in America, because we 
are both doing extension and we are learning lessons from 
development in those countries of our products. We help create 
new markets for U.S. farm products. Finally, it is a win for 
our universities because they are able to apply the resources 
that they have invested a great deal of time and money in.
    I would at this point encourage support.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Brady appears in the 
appendix.]
    Chairman Gilman. Mr. Davis is recognized on the bill.
    Mr. Davis. Thank you, Mr. Chairman. Given the lateness of 
the day, I will be brief as well.
    As Representative Brady has explained, let me also commend 
him for his hard work and leadership on this bill. The bill 
updates title XII of the Foreign Assistance Act and provides 
more flexibility for universities around the country that are 
interested, particularly those who would like to have 
partnerships with NGO's, in finding creative and more 
successful ways to meet the food and nutrition problems that 
still exist in developing countries and plague many of those 
countries.
    I would like to yield the balance of my time to 
Representative Gejdenson.
    Mr. Gejdenson. Mr. Chairman, I just want to commend Mr. 
Davis, Mr. Bereuter and Mr. Brady. As someone who has a land 
grant college in Connecticut in his district, this is the kind 
of thing that I think will be a great addition to our 
authority.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    This bill introduced by Mr. Brady and also Mr. Davis amends 
the Foreign Assistance Act to authorize the President to 
establish programs in title XII of the Act encouraging the 
formation of partnerships between land grant universities and 
nongovernmental organizations to promote sustainable 
agricultural development projects in the world's poorest and 
neediest counties.
    My amendment in the nature of a substitute corrects 
technical language in the bill. I want to thank our Ranking 
Member, Mr. Gejdenson, as well as Mr. Brady and the bill's 
other sponsors for their assistance in the formulation of this 
amendment.
    Although significant strides have been made to increase 
world food production in recent years, it is clear that more 
needs to be done to modernize agricultural practices in the 
developing world and to make certain that sound environmental 
and conservation practices are going to be applied in rural 
areas of the world's poorest countries. As in the case in other 
development fields, it is sounds policy to encourage the 
formation of partnerships among the public, private and 
academic sectors. In the agricultural arena that makes 
particularly good sense as American technology produces the 
world's greatest grain yields and can, with the provision of 
state-of-the-art technical assistance, be applied in developing 
nations. Moreover, as an added bonus, the lessons learned from 
these experiences and projects can be brought back home and 
applied to strengthen our own country's agricultural 
production.
    Accordingly, I commend the bill's sponsors for their 
efforts to encourage the formation of partnerships between the 
land grant, university, community and nongovernmental 
organizations engaged in agricultural extension work in 
developing nations.
    Are there any other Members seeking recognition or seeking 
to offer amendments to the amendment in the nature of a 
substitute? If not, the question is on adopting the Gilman 
amendment in the nature of a substitute. All those in favor of 
the amendment, signify by saying aye. All those opposed, say 
no.
    The amendment is agreed to. The previous question is 
ordered, without objection.
    The gentleman from New Jersey, Mr. Smith, is recognized to 
offer a motion.
    Mr. Smith. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending bill, H.R. 4002, 
as amended, on the suspension calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from New Jersey. Those in favor of the motion, 
signify by saying aye. Those opposed, say no.
    The ayes have it. The motion is agreed to.
    Without objection, the Chair or his designee is authorized 
to make motions under rule XXII with respect to a conference on 
this bill or a counterpart from the Senate. Further proceedings 
on this measure are postponed.
    I am asking Mr. Smith to preside for a short few minutes 
while I have to attend to a matter in the anteroom.
    Mr. Bereuter. Mr. Chairman.
    Mr. Smith [presiding]. Yes.
    Mr. Bereuter. I regret that I missed an opportunity to be 
here, because I was in markup, on the legislation introduced by 
Mr. Brady. If I had been here, I would have voted aye. I ask 
unanimous consent that my statement in support of it be made a 
part of the record.
    Mr. Smith. Without objection, your statement will be made a 
part of the record.
    [The prepared statement of Mr. Bereuter appears in the 
appendix.]


        H. CON. RES. 297--CONGRATULATING THE REPUBLIC OF HUNGARY


    Mr. Smith. We will now consider H. Con. Res. 297. The clerk 
will report the title of the bill.
    Ms. Bloomer. H. Con. Res. 297, resolution congratulating 
the Republic of Hungary on the millennium of its foundation as 
a state.
    Mr. Smith. This resolution was not referred to the 
subcommittee. Without objection, the clerk will read the 
preamble and text of the resolution in that order.
    Ms. Bloomer. Whereas the ancestors of the Hungarian 
nation----
    Mr. Smith. Without objection, the text is considered as 
read.
    [The bill appears in the appendix.]
    Mr. Smith. The gentleman from California, Mr. Lantos, is 
recognized to offer an amendment.
    [The amendment appears in the appendix.]
    Mr. Lantos. Thank you, Mr. Chairman.
    When this topic was brought before us by inadvertence or 
otherwise, it was a profoundly flawed resolution, leaving out 
significant segments of Hungary's population as having 
contributed to the economic, cultural, political life of the 
country. The Committee saw fit to delay dealing with this issue 
until the resolution can be perfected. It is now perfected, and 
I strongly urge my colleagues to vote for its approval.
    Mr. Smith. Would any other Member like to be heard on the 
amendment?
    The gentleman from California.
    Mr. Rohrabacher. I would like to take this opportunity to 
salute Mr. Lantos. Here we have got a resolution about Hungary, 
and we have got this freedom fighter Mr. Lantos, this champion 
of justice who has emerged from Hungary to come here and be 
with us in the United States. That in itself should give us 
reason to be grateful to Hungary for giving us such a great 
voice and a great colleague to be with.
    When I am saying that, I am totally in control of my 
faculties. This is not delusional on my part whatsoever.
    Mr. Gejdenson. Will the gentleman yield?
    Mr. Rohrabacher. Certainly.
    Mr. Gejdenson. The gentleman is clearly making sense this 
time, as compared to some people here occasionally.
    Mr. Rohrabacher. I totally adopt this and salute Mr. 
Lantos. I thank my friend for the great contributions that he 
makes.
    Mr. Smith. The Chair recognizes Mr. Gillmor.
    Mr. Gillmor. I just briefly want to speak in favor of this 
resolution.
    First, I would probably be in trouble at home if I did not, 
because both of my wife's grandparents came over from Hungary 
in the first part of the 1900's. They do have a very storied 
and glorious history.
    I was in Hungary with a few of my colleagues recently. We 
had the opportunity to see the crown of St. Stephen, the 
thousand-year-old crown which I think personifies a lot of that 
history.
    Also, I want to point out many, many Hungarians came to 
Ohio. In fact, Cleveland, Ohio, with a Hungarian population of 
200,000, has more Hungarians than any city in the world except 
for Budapest.
    Thank you, Mr. Chairman.
    Mr. Smith. Is there any further debate on the amendment in 
the nature of a substitute?
    The gentleman from New Jersey, Mr. Payne.
    Mr. Payne. I, too, would like to compliment the gentleman 
for the substitute that has really made a complete picture of 
the resolution.
    I also would like to say that the history of Hungary is a 
very interesting and colorful history. The tremendous courage 
shown in 1956--I am not sure that this resolution deals with 
any current history. I know we were able to get St. Stephen's 
in a thousand years ago, but I don't see the tremendous courage 
of the 1956 uprising when Cardinal Mindszenty and others spoke 
out for independence and freedom. But I would certainly 
associate myself with the remarks from Mr. Lantos and others 
who have joined in support of this resolution.
    Mr. Smith. I would just like to yield myself such time as I 
may consume, and I would ask unanimous consent that my 
statement and that of Mr. Gilman be made a part of the record.
    [The prepared statements of Mr. Smith and Mr. Gilman appear 
in the appendix.]
    Mr. Smith. I think Mr. Lantos's text substantially improves 
what was a flawed resolution. I just want to make one brief 
point, and that is that there are ongoing concerns about the 
Roma minority in Hungary as well as in other parts of Europe. 
At the OSCE summit in Istanbul last year, Hungary committed 
itself to adopting antidiscrimination legislation designed to 
prevent and to punish that kind of discrimination.
    I have held a number of hearings with the Commission on 
Security and Cooperation in Europe on Roma issues, and Hungary 
regrettably does rise to the point where there needs to be more 
efforts made, and hopefully they will do so.
    This is an excellent resolution. I do thank the gentleman 
from California for substantially improving the underlying 
text.
    Are there any other comments by Members of the Committee? 
If not, the question is on the adoption of the Lantos amendment 
in the nature of a substitute. All those in favor of the 
amendment, say aye. All those opposed, say no.
    The amendment is agreed to. The previous question is 
ordered, without objection.
    The gentleman from Nebraska, Mr. Bereuter, is recognized to 
offer a motion.
    Mr. Bereuter. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution as 
amended on the suspension calendar.
    Mr. Smith. The question is on the motion of the gentleman 
from Nebraska. All those in favor of the motion, say aye; those 
opposed, no.
    The ayes have it. The motion is agreed to. Further 
proceedings on this measure are postponed.


                S. CON. RES. 81--REGARDING RABIYA KADEER


    Mr. Bereuter. Mr. Chairman, is it possible that we are 
going to take up S. Con. Res. 81 now?
    Mr. Smith. That is what we would like to do.
    Mr. Bereuter. Thank you very much.
    Mr. Smith. We will now consider S. Con. Res. 81 relative to 
Rabiya Kadeer. The Chair lays the resolution before the 
Committee. The clerk will report the title of the resolution.
    Ms. Bloomer. S. Con. Res. 81, a resolution expressing the 
sense of the Congress that the Government of the People's 
Republic of China should immediately release Rabiya Kadeer, her 
secretary, and her son, and permit them to move to the United 
States, if they so desire.
    Mr. Smith. This resolution was referred to the 
Subcommittees on Asia and the Pacific and on International 
Operations and Human Rights, and was reported from each of 
those two subcommittees without amendment.
    Without objection, the clerk will read the preamble and 
text of the resolution in that order.
    Ms. Bloomer. Whereas Rabiya Kadeer, a prominent ethnic----
    Mr. Smith. Without objection, the resolution is considered 
as having been read and is open to amendment at any point.
    [The bill appears in the appendix.]
    Mr. Smith. I would like to recognize myself for 5 minutes 
in support of the resolution. Then I will yield to my good 
friends, Mr. Bereuter and Mr. Gejdenson, and would ask 
unanimous consent that Mr. Gilman's comments be made a part of 
the record.
    [The prepared statement of Mr. Gilman appears in the 
appendix.]
    Mr. Smith. S. Con. Res. 81, already passed by the Senate 
last month, introduced by Senator Roth, expresses the sense of 
Congress that the People's Republic of China should immediately 
release Rabiya Kadeer, her son and her secretary and should 
allow them to move to the United States if they so desire.
    I am pleased to note that yesterday the Subcommittee on 
International Operations and Human Rights reported this 
resolution favorably. As I noted a moment ago, so did Mr. 
Bereuter's subcommittee.
    Rabiya Kadeer, a prominent Muslim businesswoman from 
Xinjiang Province, China, was detained by Chinese security 
forces along with her son and her secretary in August of last 
year. She was on her way to meet with a visiting congressional 
staff delegation. She was held incommunicado for months, and in 
March of this year was sentenced to 8 years in prison for, 
``illegally giving state information across the border.'' Her 
crime was sending local newspaper clippings to her husband in 
the United States.
    Ms. Kadeer's husband, Sidik Haji, a Uighur political 
activist, has been granted asylum here in the United States and 
has participated in Radio Free Asia broadcasts into the PRC.
    Ms. Kadeer's imprisonment is the latest and most serious 
attempt by the Beijing regime to silence her husband by 
persecuting the family members who still reside in the PRC. The 
Chinese Government had prevented Ms. Kadeer from leaving China 
by confiscating her passport many months beforehand.
    On March 2 of this year, Rabiya Kadeer's daughter appeared 
before my subcommittee and provided compelling testimony about 
the plight of her mother and about the PRC's brutal repression 
of the Uighur Muslim population in Xinjiang Uighur Autonomous 
Region.
    The latest State Department country report on human rights 
practices in China also confirms that crackdown and describes 
police killing and summary executions of the Uighurs and 
tighter restrictions on Muslim religious practice.
    S. Con. Res. 81 demands the immediate release of Mrs. 
Kadeer, her son and her secretary. I am hopeful it will have 
the support of this Committee.
    I yield to Mr. Bereuter, the Chairman of the Subcommittee.
    Mr. Bereuter. Thank you, Mr. Chairman. I ask unanimous 
consent that my entire statement be made a part of the record.
    Mr. Smith. Without objection, so ordered.
    [The prepared statement of Mr. Bereuter appears in the 
appendix.]
    Mr. Bereuter. Thank you, Mr. Chairman.
    I will just summarize a couple of additional points, since 
you have covered it very well.
    This resolution was introduced by the senior Senator from 
Delaware, Senator William Roth. As mentioned, the Subcommittee 
on Asia and the Pacific marked it up on June 27.
    Given the history of Rabiya Kadeer, I would just say the 
congressional staff that she met with were actually meeting 
under the auspices of a mutual education and cultural exchange 
program of the U.S. Information Agency. She was sentenced to 8 
years in prison for the crime of ``illegally giving state 
information across the border.'' Her son was sent to a labor 
camp for 2 years last November for supporting Uighur 
separatism, and her secretary was recently sentenced to 3 years 
in labor camp.
    In Rabiya's case, the so-called state information appears 
to have consisted essentially and only of a collection of 
publicly available Chinese newspaper articles and speeches and 
a list of prisoners. As the resolution notes, the case appears 
to constitute a very clear violation of the international 
covenant on civil and political rights.
    The Chinese Government's action in this case has been 
reprehensible and must be reversed. This resolution makes clear 
the strong sense of Congress that Mrs. Kadeer should be 
immediately released and allowed to join her family in the 
United States.
    I know our colleague, Mr. Lantos, who spoke out forcefully 
on this subject in the Subcommittee, points out that this is 
one of many cases, but this one is particularly notorious since 
it also involved an action against her after she had recently 
met with congressional staff. I urge my colleagues to support 
the resolution.
    Mr. Smith. Thank you, Mr. Bereuter.
    Mr. Gejdenson.
    Mr. Gejdenson. Mr. Chairman, I commend you, Mr. Bereuter 
and others for supporting this legislation.
    The actions by the Chinese Government can only be equal to 
those of Joseph Stalin and other tyrants in history. To think 
that the Chinese Government is so shaky that it is threatened 
by one woman sending newspapers to her husband in the United 
States is a pretty frightening commentary on the Chinese; and 
as we continue the policy now through several administrations 
of engagement, it has to lead one to question whether this 
engagement does have any positive indications for the future of 
Chinese human rights and democracy.
    Mr. Smith. Is there any further debate on the resolution?
    Mr. Rohrabacher. Mr. Chairman, I rise in strong support of 
this resolution. Let me say that the case itself is important 
because every individual on this planet whose rights are being 
violated and who is being tortured and lives in these kinds of 
conditions of repression is important.
    Mrs. Kadeer--hopefully, this resolution will help her 
individually, but, more than that, it draws attention to an 
area of China that most people forget about, East Turkistan. 
East Turkistan has many more people than Tibet. Yet everybody 
knows the repression that is going on in Tibet. Yes, there is 
genocide going on in Tibet, but people forget that this same 
type of malevolence and repression and human rights violation 
is going on in East Turkistan.
    What is significant about East Turkistan is that the people 
of that area are Muslims. In Tibet, of course, they represent a 
different type of religion than is experienced and is 
representative in the rest of China, but, in East Turkistan, 
where we have a large Muslim population, you find this same 
type of repression.
    There is a message there for us. There are some lessons to 
be learned, that the Communist Chinese regime finds that the 
way that people worship God is a threat to the regime. People 
who ask for freedom, people who ask to be treated decently, and 
people who ask that their government be controlled by standards 
of a rule of law, all of those, yes, are threats to any 
tyrannical regime, but what kind of regime is it?
    Again, this goes right back to the Stalinist days, that you 
have a government that is fearful of the way that people 
worship God. In this case the Muslims of East Turkistan are as 
repressed as the people of Tibet. We should put them on our 
same list in terms of our thoughts and our prayers and our 
concern.
    In expressing this resolution, expressing our condemnation 
of the way that Mrs. Kadeer has been treated, let us make sure 
that the Communists in Beijing understand that they have made a 
mistake in the way they are treating Mrs. Kadeer because it 
draws attention to their fundamental policies that are 
unacceptable.
    One last lesson we should draw, and this is a lesson of 
history. When you have regimes that just so blatantly and 
arrogantly violate such rights as freedom of religion and 
freedom of speech and the freedoms that we have here 
represented with the arrest of Mrs. Kadeer, those regimes are 
threats to the security of the people of the world, not just 
threats to the human rights of their own population.
    I know that we debate Communist China over and over again, 
we debate the issue of human rights over and over again, but I 
would hope that people understand that, if we start 
compromising on issues of human rights, in the end our own 
security, because of that immorality, that amorality on the 
part of our decisionmakers, will come back to hurt this 
country. Whether it was Japan or Nazi Germany or any of the 
other tyrannical forces in the past, Joseph Stalin, etc., it 
does great damage to ignore this human rights component and to 
pretend that a brutal regime is not as brutal as it is.
    Thank you very much, Mr. Chairman, for your leadership. I 
certainly support this amendment.
    Mr. Smith. Thank you very much, Mr. Rohrabacher.
    Are there any other Members wishing to be heard?
    Mr. Payne.
    Mr. Payne. I would just like to also echo what has been 
said.
    I would certainly strongly support your amendment. I give 
you credit for bringing these issues to our attention. I don't 
think there is any shyness on this Committee about condemning, 
like the gentleman was saying, issues. I think we have a 
responsibility to bring the matters forth so that we all are 
aware of situations that maybe Mr. Rohrabacher knows more 
about, but to bring it to the light of the Committee and then 
we would move on it. I certainly support the gentleman from New 
Jersey.
    Mr. Smith. Thank you very much.
    If there is no further debate, the previous question is 
ordered. The gentleman from Nebraska, Mr. Bereuter, is 
recognized to offer a motion.
    Mr. Bereuter. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution on 
the suspension calendar.
    Mr. Smith. The question is on the motion of the gentleman 
from Nebraska. As many as are in favor of the motion will say 
aye. As many as are opposed, say no.
    The ayes have it. The motion is agreed to. Further 
proceedings on this measure are postponed.


      H. CON. RES. 348--CONDEMNING THE USE OF CHILDREN AS SOLDIERS


    Mr. Smith. We will now proceed to H. Con. Res. 348, 
relating to the use of children in combat. The Chair lays the 
resolution before the Committee.
    Ms. Bloomer. H. Con. Res. 348, a resolution expressing 
condemnation of the use of children as soldiers and expressing 
the belief that the United States should support and, where 
possible, lead efforts to end this abuse of human rights.
    Mr. Smith. This resolution was considered by the 
Subcommittee on International Operations and Human Rights, 
marked up and reported with an amendment in the nature of a 
substitute reflected in the document labeled committee print 
which is now before the Members. Without objection, the 
subcommittee recommended amendment in the nature of a 
substitute shall be considered as an original text for the 
purpose of amendment, and the clerk will read the preamble and 
the text of the subcommittee recommendation in that order.
    Ms. Bloomer. Whereas in the year 2000----
    Mr. Smith. Without objection, the subcommittee 
recommendation is considered as having been read and is now 
open for amendment at any point.
    [The original and amended bills appear in the appendix.]
    Mr. Smith. I would like to recognize myself to give some 
opening comments, for such time as I may consume.
    As one of the sponsors of H. Con. Res. 348, which was 
introduced by our friend, John Lewis of Georgia, earlier this 
month, this resolution condemns the use of child soldiers and 
urges that the United States support and lead the international 
effort to abolish this brutal abuse of children.
    Yesterday our subcommittee, as I pointed out, marked up 
this resolution favorably; and we made some minor changes that 
were unanimously accepted.
    The use of child soldiers is widespread and heartbreaking. 
According to responsible estimates, there are approximately 
300,000 minors participating in armed conflicts around the 
world this year. Many of these children are kidnapped or 
coerced into service and are exposed both to the dangers of 
combat and to the hazardous living conditions that permanently 
impair their physical health. Their mental health as well is 
permanently shattered in many instances.
    At a hearing before my subcommittee that we had last 
Congress, Sister Mary Rose Atuu described the work she does 
among the children of Northern Uganda. In that region, children 
are grossly abused by the so-called Lords Resistance Army, a 
violent rebel force supported by the Government of Sudan. The 
LRA kidnaps young children and transforms them into LRA 
fighters through coercion and brainwashing. Little boys are 
turned into torturers, rapists, and executioners. Young girls 
are forced to become concubines for militia leaders.
    In order to break the wills of the children it steals, the 
LRA forces them to commit unspeakable atrocities, sometimes 
making them kill their own parents and young siblings. If they 
escape the clutches of their military captors, these broken 
kids require long-term rehabilitation that is frequently not 
available to them.
    Similar atrocities take place in other parts of the world, 
such as in Sierra Leone, as well as in Sri Lanka.
    It is on an encouraging note the nations of the world have 
begun to address these crimes against children. In January, a 
U.N. working group, comprised of representatives from 80 
countries, including the United States, reached consensus on an 
optional protocol to the Convention on the Rights of the Child 
regarding the use of child soldiers. Most notably, this 
protocol will raise the international minimal age for 
conscription and direct participation in armed conflict to the 
age of 18.
    On May 25, the U.N. General Assembly unanimously adopted 
the optional protocol.
    H. Con. Res. 348 puts the Congress on record as condemning 
the use of child soldiers. It also encourages the United States 
to support the optional protocol as a welcome first step toward 
ending this brutalization of children.
    With the consent of my Democratic colleagues and the author 
of the resolution, I offered a minor amendment, simply 
indicating that I was very supportive of that effort yesterday 
when we marked up the bill.
    I would at this point ask if any other Members have 
comments they would like to say on the resolution.
    I recognize the gentleman from Connecticut.
    Mr. Gejdenson. I agree with all your statements. There are 
about 300,000 children out there fighting, some as young as 5 
years old. It is something that we need to address. I commend 
your efforts.
    Mr. Smith. Without objection, Mr. Gilman's statement will 
be made a part of the record.
    [The prepared statement of Mr. Gilman appears in the 
appendix.]
    Mr. Smith. The gentleman from New Jersey is recognized for 
an amendment.
    Mr. Payne. Thank you, Mr. Chairman.
    I would certainly like to commend you and Mr. Lewis and 
myself as a cosponsor. I think this is an issue that really has 
to be more seriously looked at. The question of the numbers--
the Ranking Member just mentioned 300,000 young people being 
used as children soldiers--the fact that they are coerced, they 
are threatened, they are brutalized, and then psychologically 
they are ill-prepared to be returned back into society.
    I think that we should certainly urge the President to sign 
the optional protocol at his earliest opportunity. Once that is 
signed, hopefully, the Senate will ratify the protocol.
    The protocol simply says that we should have no youngsters 
under 17 in the armed forces and at 18 in combat. I don't 
believe that we here in the United States--it has been very 
rare instances, probably even nonexistent, in the last 50 years 
that the United States has used soldiers under the age of 18 in 
actual combat. They have had persons under 18, probably, in the 
military, but I would doubt very seriously if we have really 
had very many, if any, combatants under the age of 18.
    I just support this resolution and urge its adoption.
    I yield back the balance of my time.
    Ms. Ros-Lehtinen [presiding]. Thank you, Mr. Payne.
    Is there any further debate or amendment on the 
subcommittee recommendation?
    If not, the question is on agreeing----
    Mr. Rohrabacher. Madam Chairman, could I just say one 
thing? I would have felt more comfortable about this resolution 
if they had put 16 rather than 18. Because there were a lot of 
people that served in combat when they were under 18--a lot. 
But I am supporting it, anyway.
    Ms. Ros-Lehtinen. Thank you.
    If not, the question is on agreeing to the subcommittee 
recommendation, as amended. As many as are in favor of the 
amendment, say aye. As many as are opposed, say no.
    The amendment is agreed to. The previous question is 
ordered on the resolution, without objection.
    The gentleman from California, Mr. Rohrabacher, is 
recognized to offer a motion.
    Mr. Rohrabacher. Madam Chairman, I move that the Chairman 
be requested to seek consideration of the pending resolution, 
as amended, on the suspension calendar.
    Ms. Ros-Lehtinen. The question is on the motion of the 
gentleman from California. As many as are in favor of the 
motion, say aye. As many as are opposed, say no.
    The ayes have it. The motion is agreed to.
    Without objection, the Chair or his designee is authorized 
to make motions under rule XXII with respect to a conference on 
this resolution or a counterpart from the Senate. Further 
proceedings on this measure are postponed.


        H. CON. RES. 319--CONGRATULATING THE REPUBLIC OF LATVIA


    We will now turn to H. Con. Res. 319. We will be 
considering this resolution which congratulates the Republic of 
Latvia. The Chair lays the resolution before the Committee. The 
clerk will report the title of the resolution.
    Ms. Bloomer. H. Con. Res. 319, a resolution congratulating 
the Republic of Latvia on the 10th anniversary of the 
reestablishment of its independence from the rule of the former 
Soviet Union.
    Ms. Ros-Lehtinen. The resolution was not referred to 
subcommittee. Without objection, the clerk will read the 
preamble and the text of the resolution in that order.
    Ms. Bloomer. Whereas the United States had never recognized 
the forcible----
    Ms. Ros-Lehtinen. Without objection, the resolution is 
considered as having been read and is open to amendment at any 
point.
    [The bill appears in the appendix.]
    Ms. Ros-Lehtinen. I would like to recognize Mr. Gejdenson 
to introduce the resolution to the Committee. The gentleman is 
recognized for 5 minutes.
    Mr. Gejdenson. Thank you, Madam Chairman.
    I think there are so many of us who spent years here moving 
resolutions on the Baltic States with the hope that someday we 
would see freedom for these countries, for one, my own mother's 
homeland, Lithuania. We were never sure that it would happen in 
our lifetime. That struggle continued here in the Congress, led 
by many people on this Committee, people on the Senate side 
like Mr. Durbin and others; and the fact that we have this 
success I think is something that gives us all hope whenever we 
see struggle and oppression around the world. The fact that the 
United States never recognized the forcible annexation, the 
resistance of the people of the Baltic States, in particular in 
this case Latvia, is something to give us all hope and 
encouragement.
    I urge support for the resolution.
    Ms. Ros-Lehtinen. Any others who wish to be recognized on 
this resolution?
    [The prepared statement of Mr. Gilman appears in the 
appendix.]
    Ms. Ros-Lehtinen. If there is no further debate, the 
gentleman from California, Mr. Rohrabacher, is recognized to 
offer a motion.
    Mr. Rohrabacher. Madam Chairman, I move that the Chairman 
be requested to seek consideration of the pending resolution as 
amended on the suspension calendar.
    Ms. Ros-Lehtinen. The question is on the motion of the 
gentleman from California. As many as are in favor of the 
motion, say aye. As many as are opposed, say no.
    The ayes have it. The motion is agreed to. Further 
proceedings on this measure are postponed.
    We will have a brief recess while we consider the next 
resolution.
    [Recess.]


          H. CON. RES. 232--U.S. CITIZENS TRAVELING IN MEXICO


    Ms. Ros-Lehtinen. We will now consider H. Con. Res. 232 
relating to the safety of Americans traveling in Mexico. The 
Chair lays the resolution before the Committee. The clerk will 
report the title of the resolution.
    Ms. Bloomer. H. Con. Res. 232, a resolution expressing the 
sense of Congress concerning the safety and well-being of 
United States citizens injured while traveling in Mexico.
    Ms. Ros-Lehtinen. This resolution was considered by the 
Subcommittee on Western Hemisphere Affairs, marked up and 
reported with an amendment in the nature of a substitute 
reflected in the document labeled Committee Print now before 
the Members.
    Without objection, the subcommittee recommended amendment 
in the nature of a substitute shall be considered as original 
text for the purpose of amendment. The clerk will read the 
preamble and the text of the subcommittee recommendation in 
that order. The clerk will read the subcommittee 
recommendation.
    Ms. Bloomer. Whereas hundreds of United States citizens 
travel by automobile to Mexico every day;
    Whereas United States automobile insurance----
    Ms. Ros-Lehtinen. Without objection, the subcommittee 
recommendation is considered as having been read and is open to 
amendment at any point.
    [The original and amended bills appear in the appendix.]
    Ms. Ros-Lehtinen. I would now recognize the gentleman from 
Connecticut, Mr. Gejdenson, to introduce it to the Committee. 
The gentleman is recognized for 5 minutes.
    Mr. Gejdenson. Madam Chairwoman, I support the excellent 
work done by the subcommittee and your work in this area. It is 
an issue that creates, sometimes, humanitarian crises for 
Americans who need medical treatment and may not be able to get 
a bond as a result of an automobile accident. I hope we pass 
this swiftly.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Gejdenson.
    I would like to recognize myself to congratulate 
Congressman Hunter for introducing this resolution and bringing 
it to our Committee's attention.
    I also had a constituent who was severely impacted by the 
terrible situation for medical procedures on the return of U.S. 
citizens from Mexico. The Andrews family of my congressional 
district had a terrible car accident, and he is now in a 
horrible medical state. The Mexican Government, the officials 
and the ambulance service were not helpful in a dire, life-
threatening situation. The family should not be concerned with 
having to gather thousands of dollars which are needed for the 
exit bond requirements by these ambulance services and the 
government.
    We commend Mr. Hunter for bringing this resolution to the 
Committee's attention. We hope that the President does act on 
it and negotiate a settlement so that similar tragedies can be 
prevented in the future.
    Is there any further debate or amendment on the 
subcommittee recommendation?
    [The prepared statement of Mr. Gilman appears in the 
appendix.]
    Ms. Ros-Lehtinen. If not, the question is on agreeing to 
the subcommittee recommendation as amended. As many as are in 
favor of the amendment, say aye. As many as are opposed, say 
no.
    The amendment is agreed to.
    The gentleman from California, Mr. Rohrabacher, is 
recognized to offer a motion.
    Mr. Rohrabacher. Thank you.
    Madam Chairman, I move that the Chairman be requested to 
seek consideration of the pending resolution as amended on the 
suspension calendar.
    Ms. Ros-Lehtinen. The question is the motion of the 
gentleman from California. As many as are in favor of the 
motion, say aye. As many as are opposed, say no.
    The ayes have it. The motion is agreed to.
    Without objection, the Chair or his designee is authorized 
to makes motions under rule XXII with respect to a conference 
on this resolution or a counterpart from the Senate. Further 
proceedings on this matter are postponed.
    We will have a brief recess while we consider the next 
resolution.
    [Recess.]


                H. RES. 531--THE BOMBING IN BUENOS AIRES


    Ms. Ros-Lehtinen. The Committee will now consider H. Res. 
531 relating to the bombing in Buenos Aires. The Chair lays the 
resolution before the Committee. The clerk will report the 
title of the resolution.
    Ms. Bloomer. H. Res. 531, a resolution condemning the 1994 
attack on the AMIA Jewish Community Center in Buenos Aires, 
Argentina, urging the Argentine Government to punish those 
responsible, and for other purposes.
    Ms. Ros-Lehtinen. This resolution was not referred to the 
subcommittee. Without objection, the clerk will read the 
preamble and the text of the resolution in that order.
    Ms. Bloomer. Whereas on July 18, 1994----
    Ms. Ros-Lehtinen. Without objection, the resolution is 
considered as having been read and is open to amendment at any 
point.
    [The bill appears in the appendix.]
    Ms. Ros-Lehtinen. I would like to recognize me as the 
sponsor of the resolution for introduction of the resolution to 
the Committee, and I recognize myself for 5 minutes.
    Mr. Chairman, I wish to thank you for expediting the 
consideration of this resolution and commend you for your 
ongoing commitment to combating terrorism and specifically for 
seeking the truth regarding the heinous terrorist attack 
against the Jewish community in Argentina.
    On July 18, 1994, a dark cloud of fear and anguish 
enveloped the city of Buenos Aires, Argentina, when 86 innocent 
human beings were killed and 300 were wounded as a result of 
the bombing of the Jewish Community Center. The immediate 
reaction from the Argentine Government was firm. The expressed 
commitments filled those of Jewish faith with hope and 
confidence that justice would be served. The promises made, 
however, provided a false sense of security for all of the 
people of Argentina and for the community of the democratic 
nations of our hemisphere who believed that the culprits would 
be found and punished in an expeditious manner.
    However, 6 years after the bombing, justice, peace and 
security continue to be somewhat illusive concepts. It was 
clear that this attack and the earlier one on the Israeli 
embassy were part of a campaign of violence targeted at the 
Jewish community in Argentina and throughout the world by 
radical militant groups in the Middle East.
    Circumstantial evidence would later support this 
connection, attributing the bombing to the terrorist group 
Hezbollah based in Lebanon and sponsored by Iran. Yes, Iran, a 
country which is no longer considered to be a ``rogue state'' 
but merely a ``country of concern.''
    Additional evidence indicates that the tri-border area with 
Argentina, Paraguay, and Brazil was used to channel resources 
for the purposes of carrying out this terrorist attack.
    While the initial publicity and international focus has 
greatly diminished, the scars and wounds have not. These will 
not begin to heal until an investigation is pursued with vigor 
and determination, and until effective action is taken by all 
to ensure that justice is served.
    Every citizen of every society has a right to live in peace 
and liberty, free from the threat of terrorism. The democratic 
countries in our hemisphere have all reiterated their 
commitment to ensure and protect this right for all. This means 
the United States and all of our regional allies will share in 
the responsibility, unite in condemning such terrible acts, and 
render their cautious support to the new Argentine 
Administration that has expressed the political will to pursue 
the investigation into the bombing to its ultimate conclusion.
    These goals are found in our resolution today, Mr. 
Chairman. H. Res. 531 serves not only as a road map to the case 
but details the legal and moral obligations which require us to 
act. It reiterates the condemnation of the bombing, but, more 
importantly, it serves as a tool to publicly honor and remember 
the victims of this terrorist attack. It makes a series of 
recommendations and requests which will send an unequivocal 
message to all that the United States considers the resolution 
of this case a priority. That we are prepared to take the 
necessary steps to help make this goal a reality and that we 
work with our regional neighbors as well as the Government of 
Argentina, and provide them with assistance when requested. It 
underscores the U.S. position that terrorism in all of its 
manifestations will not be tolerated, that we will not be held 
hostage by a band of thugs who use terror and violence to 
undermine the peace and stability of free and democratic 
nations.
    We have 18 cosponsors, and 18 is the corresponding 
numerical value afforded to the Hebrew chai, which means life. 
This resolution is precisely about life. For the sake of the 
victims, for the sake of the hemisphere and global security, 
and for the sake of justice, I ask our colleagues to support 
this resolution, Mr. Chairman.
    I would like to recognize the Ranking Member, Mr. 
Gejdenson, for his remarks.
    Mr. Gejdenson. Madam Chairman, I commend you for your 
efforts. I am ready to offer an amendment whenever it is 
appropriate.
    Ms. Ros-Lehtinen. Thank you.
    Does the clerk have the amendment? The clerk will 
distribute the amendment.
    Mr. Gejdenson. If I might explain the amendment.
    Ms. Ros-Lehtinen. Mr. Gejdenson is recognized to explain 
his amendment. The clerk will read the amendment first.
    Ms. Bloomer. Amendment offered by Mr. Gejdenson.
    Mr. Gejdenson. I move the amendment be considered as read.
    [The amendment appears in the appendix.]
    Ms. Ros-Lehtinen. Without objection.
    Mr. Gejdenson is recognized.
    Mr. Gejdenson. The Argentinian Government was successful in 
enacting a law to gain cooperation from defendants in order 
that they may be able to place pressure on some of those lower 
down in the operation to get people higher up. They have passed 
that. This would commend them for that. It recognizes the 
continued efforts of the Administration. This has been a 
bipartisan and legislative area of cooperation in trying to 
press for a resolution of this issue. I move the amendment.
    Ms. Ros-Lehtinen. Is there debate on the amendment?
    Mr. Gilman.
    Chairman Gilman. I thank the distinguished Ranking Member 
from Connecticut for his amendment to H. Res. 531. I support 
this. It is an excellent amendment. It serves to properly 
acknowledge positive efforts of both the Argentine Congress and 
our President.
    Ms. Ros-Lehtinen. The question is on the amendment. All in 
favor, say aye. All against, say no.
    The ayes appear to have it. The amendment is adopted.
    Chairman Gilman. Madam Chairman, I want to commend the 
gentlelady from Florida, Ms. Ros-Lehtinen, and the bipartisan 
group of cosponsors of this resolution for ensuring that our 
Congress properly marks the unhappy occasion of the sixth 
anniversary of the 1994 terrorist bombing of the AMIA Jewish 
Community Center in Buenos Aires.
    I have long been concerned about seeing that this heinous 
crime is resolved and that those responsible are brought to 
justice. At my suggestion, the Argentine Government created a 
$2 million reward program to help obtain information to resolve 
this act of terrorism.
    Last year, the Argentine Congress passed important 
legislation that allows investigating Judge Juan Jose Galeano 
to engage in plea bargaining. Nevertheless, a trial of the 
Argentinian citizens charged with involvement in this terrorist 
bombing has, regrettably, been much delayed. When the local 
trial does get under way, I urge the Argentinian authorities to 
invite international observers to witness the trial 
proceedings.
    Six years is much too long to let time pass without 
justice. Justice delayed is no justice at all.
    During his recent visit to the United States, President 
Fernando de la Rua made a point of visiting the Holocaust 
museum and issuing a public apology for the role that Argentina 
played in harboring Nazis after World War II.
    President de la Rua said, ``Today, before you and before 
the world, I want to express my most sincere pain and to ask 
forgiveness that this happened, that Nazis were hidden among 
us.''
    I believe in President de la Rua's sincerity. We thank him 
for this important statement.
    Solving this awful crime and bringing those responsible to 
justice is the proper way to bring healing to the still-open 
wounds in Argentina. Accordingly, I urge our colleagues to join 
in supporting this resolution by the gentlelady from Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Gilman.
    Are there further amendments on the resolution?
    Mr. Gillmor.
    Mr. Gillmor. Madam Chairman, I have an amendment at the 
desk.
    Ms. Ros-Lehtinen. The clerk will read the amendment.
    Ms. Bloomer. Amendment offered by Mr. Gillmor.
    Strike the fourth clause of the preamble.
    Ms. Ros-Lehtinen. The clerk will distribute the amendment.
    I recognize Mr. Gillmor for 5 minutes.
    [The amendment appears in the appendix.]
    Mr. Gillmor. Madam Chairman, first, I want to commend you 
for offering this resolution.
    This was a heinous crime. I think the United States as well 
as the Argentine Government ought to be pursuing every avenue 
that we can to bring those culpable to justice, whether in 
Argentina or in other places of the world. In fact, I support 
the resolved part of this resolution.
    This, like all resolutions, has two parts. The meat of it, 
the resolved part which condemns the attack, urges the 
government to punish those involved and urges our President to 
bring this up in bilateral negotiations.
    The amendment I have doesn't delete anything in the 
resolved clause, but it does delete one of the whereas clauses 
which strikes me as possibly not accurate and is simply a 
gratuitous slap at a democratic government and a friend of 
ours, the Argentinian Government. I think most people would 
read it as implying there was some type of government personnel 
involvement, for which there is, based on what I have been 
informed by the State Department, no evidence.
    I did contact the State Department after reading this 
resolution, got ahold of them today, as to their view. They 
oppose that language.
    I would also point out that an identical resolution was 
introduced in the U.S. Senate and with good reason the Senate 
removed this clause that I am proposing that we remove. I think 
what the evidence is, is that there were some former security 
personnel, which I guess we would call rogue cops, who were 
involved in this attack.
    I think about the reaction that most Americans would have 
if we had a foreign parliament condemning us if we had some 
rogue cops commit a crime against Americans. I think we would 
be greatly offended, and rightly so; and I think it is very 
reasonable to expect that the Argentinians will have exactly 
the same kind of reaction when we do the same thing.
    This would eliminate what is potentially offensive language 
which both the U.S. State Department and the Argentine Embassy 
have reported they feel would be of concern to their 
government.
    I think we also have to remember that these acts didn't 
occur even when this government was in control. You have a 
democratic country, you have a new government which has been 
very strong in promoting antiterrorism, and I think it is only 
reasonable that we delete this, which leaves intact all of the 
operative language of the resolution which is all the resolved 
clause. I would ask for approval of the amendment.
    Ms. Ros-Lehtinen. Thank you Mr. Gillmor.
    Is there further debate on the amendment?
    Mr. Gejdenson is recognized.
    Mr. Gejdenson. I would oppose the amendment. I think the 
language in no way says anything against the elected government 
of Argentina. It references particularly things that have been 
reported publicly and indicates that the judge indicted three 
high-ranking provincial police officers. It is well known that 
there has been this terrible situation in Argentina for years, 
during the years of the disappearances where people in official 
positions in the military and police were involved in terrible 
acts against their own citizens. There are at least those that 
are arguing that these policemen who are now on trial have been 
one of the reasons that it hasn't moved as rapidly as it might.
    If you read the section, it doesn't say we are condemning 
the Argentinian Government. As a matter of fact, I added 
language that lauds the elected government of the President. 
What this says is evidence indicates the bombing couldn't have 
been carried out without local assistance from elements of the 
Argentinian security forces and some of which are reported to 
be sympathetic to anti-Semitic positions.
    There is certainly ample evidence of that when you look at 
what happened in the act. It wasn't a general attack on the 
public. It was an attack on Jewish people. It doesn't attack 
the government. I think we ought to keep the language and get 
the message across that we want this, after so many years, to 
be resolved.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Gejdenson.
    Is there further debate?
    Mr. Gilman is recognized for 5 minutes.
    Chairman Gilman. Thank you, Madam Chairman.
    With respect to the amendment offered by the gentleman from 
Ohio, let me note that, back in September 1995, the Committee 
conducted an extensive hearing with regard to the AMIA bombing 
in Argentina. We took a considerable amount of evidence.
    We have also met with the presiding judge who came up to 
Washington to meet with our Committee. We also met in Argentina 
with the presiding judge and met with a number in the 
prosecutorial role in Argentina.
    Of the 20 to be tried in the bombing, 15 were policemen. Of 
the 20, 5 are considered necessary to the bombing, and I quote 
from their charges, and face charges of murder, conspiracy and 
corruption. Among those charged with the bombing was the 
provincial inspector. Among the charged were three former 
policemen and a former detective. It was discovered that the 
former head of the provincial police force car-theft unit had 
received 2\1/2\ million pesos a week prior to the bombing.
    That is just one example of how local corruption and 
international terrorism have been intertwined. Large amounts of 
contraband, including explosives and detonators, were 
discovered in the homes of several of the retired army 
officers. Among those being held on charges is a police 
sergeant with ties to an extremist party whose leader was once 
quoted as saying, and this quote came out of Time Magazine of 
December 18, 1995, ``It is easier to find a green dog than an 
honest Jew.''
    I submit to my colleague from Ohio that the trial, and the 
local connection to the bombing including members of the 
security forces, is scheduled to begin by early next year. This 
trial of the local connection, which includes persons who were 
part of Argentina's security forces, is critically important. I 
therefore reluctantly cannot support the amendment offered by 
our good colleague from Ohio, Mr. Gillmor.
    Mr. Gillmor. Will the gentleman yield?
    Chairman Gilman. I will be pleased to yield.
    Mr. Gillmor. Has anyone--because I attempted to and did not 
have the opportunity because of the short time before this 
resolution came up--has anyone asked the Argentine Government 
their view of this language? Because I hear this indirectly 
from the State Department. It seems to me that, as the 
International Relations Committee, if we are going to make a 
policy statement on international relations, we ought to be 
doing it with all the facts. Has anybody asked what 
specifically was the reaction?
    Mr. Lantos. Will the gentleman yield?
    Ms. Ros-Lehtinen. Mr. Gilman will yield to Mr. Lantos.
    Mr. Lantos. I want to be sure I understand the question of 
my good friend.
    I think it is self-evident that when you ask the government 
of China whether in fact they are engaged in human rights 
violations, they will say no. When you ask the Government of 
the Soviet Union whether they were engaged in creating a gulag, 
their answer is no. It is self-evident that the government will 
not proclaim that its security forces are guilty of 
participating in the mass murder of 84 utterly innocent men, 
women and children because they happened to be Jews.
    So I am puzzled at the gentleman's request as to whether 
the government has been asked. The government will clearly 
deny.
    That is not the issue. The facts are that, over a long 
period of time, partly because Argentina has provided safe 
haven to a vast number of Nazi war criminals, there has been a 
very significant anti-Semitic sector of society which has 
deeply penetrated Argentine police and security forces. The 
fact that in 6 years they have been unable to get to the bottom 
of this outrage, that a community center was blown up with the 
largest single loss of Jewish life since the end of the Second 
World War ought to be a clear indication that the security 
forces are not very anxious to get to the bottom of this 
affair.
    Argentina will not like this statement, just as other 
governments don't like statements which point out the profound 
flaws. This is a fairly significant flaw. This was a community 
center and a child center where large numbers of civilians were 
attending various functions. Children were at a child care 
center, and the place was blown up.
    The record at the time clearly indicated--as I walked in, I 
heard the gentleman from New York quote from the record, that 
there was, in fact, evidence of members of the security forces 
being participants, facilitators of this activity. I think it 
would ill behoove this Committee not to call a spade a spade 
and where there are large-scale race crimes perpetrated in a 
friendly nation in the hemisphere to shy away from stating 
this.
    I thank the gentleman for yielding.
    Ms. Ros-Lehtinen. I would like to recognize myself for 5 
minutes on this very point.
    Data indicates that this bombing could not have been 
carried out without local assistance from elements of the 
security forces of Argentina. These and all clauses of the 
resolution are supported by official statements by legal 
documents, and multiple news reports. The President of 
Argentina, President de la Rua, acknowledged the internal 
connection and other issues in the bombing case in March of 
this year during a press conference. We welcome President de la 
Rua's political will, as he has demonstrated in his 
administration to pursue all leads to their ultimate 
conclusion.
    Hacoba Timmerman, who is a jurist and an author, said, and 
I will quote from this news report, it is apparent why 
international terrorists twice would choose Argentina for their 
attacks on Jewish interests. He says, our large community of 
Jews is the first part, said Timmerman, whose highly publicized 
imprisonment and torture during the military regime makes him 
Argentina's best known Jew. He says, and we have a large 
organization of police eager to accept the job of carrying out 
attacks like those.
    In the Chicago Tribune of January 26, 1997, it says, in 
trying to unravel the bombing that killed 86 people, 
investigators discovered last week that a high-ranking former 
officer who ran the provincial police forces car-theft unit 
received $2.5 million the week before the bombing. In 1996 the 
provincial inspector was charged in the bombing. Now however, 
said Sergio Reanon, editor of a Buenos Aires daily, the two 
issues, local corruption and foreign terrorism, have been 
intertwined.
    In the Commercial Appeal newspaper in Memphis, raising the 
specter of anti-Semitism in Argentina security forces, 
authorities Wednesday charged three police officers and a 
former detective as accomplices in the terrorist bombing, 
charged with providing the van that was used in the bombing. 
Legal documents prepared by the attorneys for the victims and 
based on case files and evidence state that suspects were 
created for the upcoming trial and false leads provided by 
certain elements of the security forces of Argentina.
    I believe that this whereas clause is very clear, and we 
understand that the new Administration has been cooperative, 
and we welcome that strong political will. I hope that the 
gentleman's amendment will not be agreed to by the Members of 
our Committee.
    Is there further discussion on the amendment?
    Mr. Gilman.
    Chairman Gilman. Madam Chairman, I am going to ask that our 
assistant, Mr. Mackey, present a copy of the report of our 
hearing on terrorism with regard to the AMIA bombing in 
Argentina dated September 28, 1995.
    Ms. Ros-Lehtinen. Without objection.
    Chairman Gilman. I think my good colleague may find this to 
be informative.
    Is there further discussion?
    Mr. Rohrabacher.
    Mr. Rohrabacher. I rise in opposition to this amendment.
    I am really sorry that our colleague actually moved forward 
with the amendment, because I think when he finds out what is 
really going on down in Argentina and the facts behind this 
case that he will regret having to move forward.
    There are some things I have done that I have regretted 
since I have been in Congress, too, because, with all 
indications that we have, is that, first of all, we have to 
start with Argentina, the place where the Nazis went after they 
left Germany. They ended up--many of them ended up in 
Argentina. There is a reason for that, because they felt they 
could get safe haven there. They felt that some people would 
turn their head and pretend not to notice that somebody with 
their hands dripping with blood was walking right next to them 
on the street. And when people ignore these butchers and ignore 
people who have committed these type of crimes, people who 
commit such crimes tend to go to those places.
    In this particular situation, we have got a history that 
suggests that anti-Semitism has played a role in some of the 
events that are happening; and then, by coincidence, we happen 
to have the bombing in which, was it 84 or 88--how many people 
lost their lives?
    Ms. Ros-Lehtinen. Eighty-six.
    Mr. Rohrabacher. Eighty-six human beings lost their lives. 
And why? Because they were Jewish. Obviously, it was aimed at 
killing Jews.
    How did that happen? All right, there was a large amount of 
explosives transported into Argentina. Somebody managed to 
organize this effort so that explosives were not only 
transported but were put in place. A plan had to be devised. I 
just can't understand anyone who would not just take it for 
granted that the authorities must have known about this.
    It is to me, Madam Chairman, very similar to Agca, who shot 
the Pope. He was in Bulgaria before he shot the Pope, meeting 
people, conspiring to shoot the Pope.
    Does that mean that we automatically assume that the 
Bulgarian Government was involved in it? At the very least, the 
Bulgarian Government knew about it and didn't do anything about 
it--at the very least. And probably it indicates the Bulgarian 
Government was supportive.
    Well, I think the evidence that we have dealing with this 
horrendous act of terrorism indicates that, yes, the magnitude 
of the action itself would indicate that the authorities knew 
something was going on. Did they actually light the fuse? Did 
they participate in placing the explosives? That is possible. 
Actually, that is more possible than it is that they didn't 
know anything about it at all.
    I think it is a very reasonable assumption, and it is 
reasonable for us to move forward with suggesting that the 
people of Argentina need to take not only a self-inspection but 
to inspect their government as well the motives of the people 
in their government. Obviously, this type of terrorism is 
officially unacceptable, but it sounds like to me, again, when 
we are talking about people that have one policy that is a 
stated public policy but other actions that undermine that 
stated policy, this may well be one of those examples. I think 
that it deserves all of us calling the Argentinians on the 
carpet and making them be held accountable.
    Mr. Rohrabacher. As I say, the government officials may not 
have placed the explosives, they may not have lit the fuse, but 
their actions or inactions led to this horrible atrocity.
    One other comparison, and people may not like this, but the 
fact is that there are horrendous human rights abuses going on 
in China. Businessmen who are part of the inner circle of the 
Communist leadership may not personally be involved with the 
brutalities in Tibet or the type of murders that are going on 
with human rights activists, but they know that they are going 
on, and they are involved with the leadership of the government 
in many ways. And in Argentina, someone in the government 
obviously knew that this type of operation was going on and 
turned a blind eye, which resulted in this tremendous atrocity.
    So I am sorry that I have to oppose this amendment.
    Ms. Ros-Lehtinen. Is there further debate?
    Mr. Bereuter is recognized for 5 minutes.
    Mr. Bereuter. My timing has been all wrong today. I walked 
in during the middle of the gentleman's comments.
    Ms. Ros-Lehtinen. Every time we see you is the right time.
    Mr. Bereuter. One thing I did hear from the gentleman from 
Ohio is his concern about the fact that we have a different 
government there. I notice in clause 2 that we are welcoming 
Argentine President Fernando de la Rua's political will, so we 
are recognizing that there is the intent to do something 
positive. We are hoping that is the case. I am just wondering 
if it would make the gentleman any more comfortable with the 
fourth clause and be acceptable to the rest of the Members if 
after the word ``bombing,'' if you would simply insert the 
phrase ``which occurred during the previous government.'' I 
wonder if that would make the gentleman happier.
    Ms. Ros-Lehtinen. Mr. Gillmor is recognized, if you would 
like to respond to Mr. Bereuter.
    Mr. Gillmor. I had offered compromise language earlier.
    Mr. Bereuter. I apologize.
    Mr. Gillmor. I offered it to sponsors and other Members, 
and that was rejected. That amendment would have simply 
provided that there were former Members, not current Members, 
at the time the attack took place, and also deleted the 
language ``allegation that they had participated in the 
desecration of Jewish cemeteries,'' these individuals, or 
elements of the security forces had; and I did that based on 
the representations of the State Department that there was no 
evidence of that.
    But this implies as you read it that current, serving at 
that time, members of the security forces were actively 
involved in those attacks, and I don't think that there is any 
evidence of that, and so I offered the amendment to say former 
and delete the last clause, but that was rejected.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Bereuter and then Mr. Lantos.
    Mr. Bereuter. I yield to the gentleman.
    Mr. Lantos. I thank my friend for yielding.
    I think it is accurate to say that this occurred during the 
previous government. I don't think that it is accurate to say 
that the security people who could have been involved in this 
atrocity are former members. We have no idea whether they are 
not serving as of this afternoon, because for 6 years the 
Argentinian authorities have failed to close this case.
    I, for one, would welcome Mr. Bereuter's suggestion that 
the government was a former government, but the individuals may 
well be currently serving in the Argentine police and security 
forces.
    Ms. Ros-Lehtinen. That would be U.S. evidence indicates 
that this bombing which occurred during the previous 
administration; is that correct, Mr. Bereuter?
    Mr. Bereuter. It would be, but I have not written it out 
and sent it to the clerk.
    Ms. Ros-Lehtinen. We have Mr. Gillmor's amendment.
    Mr. Bereuter. The gentleman strikes the whole clause.
    Ms. Ros-Lehtinen. If there is no further debate on Mr. 
Gillmor's amendment, we would like to bring it to a vote. The 
question is on Mr. Gillmor's amendment. As many in favor, say 
aye.
    As many as are opposed, say no.
    The noes appear to have it, and the amendment is not agreed 
to.
    Mr. Bereuter, would you like to offer your amendment at 
this time?
    Mr. Bereuter. Ma'am, are you encouraging me?
    Ms. Ros-Lehtinen. No, we are not.
    Mr. Bereuter. I will abstain.
    Ms. Ros-Lehtinen. Thank you.
    If there are no further amendments----
    Mr. Gillmor. Madam Chair.
    Ms. Ros-Lehtinen. Mr. Gillmor is recognized.
    Mr. Gillmor. I have a further amendment at the desk.
    Ms. Bloomer. Amendment offered by Mr. Gillmor. Insert the 
following after the third whereas clause: Whereas the current 
government has made a commitment to combating international 
terrorism as illustrated by----
    Ms. Ros-Lehtinen. Without objection, the amendment is 
considered as read.
    [The amendment appears in the appendix.]
    Ms. Ros-Lehtinen. Mr. Gillmor is recognized.
    Mr. Gillmor. I think, at least in my view, it is the good 
guys that are now running the government down there, not the 
bad guys. And I think one interpretation, we might say that we 
have slapped the good guys on the cheek instead of the bad 
guys. Maybe this amendment will give them a kiss on the other 
cheek, commending the government.
    Before I explain the amendment, I want to say to my good 
friend from California who is still here that this bombing----
    Mr. Lantos. Which of your two good friends from California?
    Ms. Ros-Lehtinen. Mr. Rohrabacher.
    Mr. Gillmor [continuing]. Your indicating that this could 
not have happened without the active involvement of the 
security forces is like saying that the U.S. Government and its 
officials must have been involved in the Oklahoma City bombing 
which was carried out without any active government 
participation, but was just as effective. So terrorists, 
wherever they are from, can be terrorists without government 
involvement.
    The Argentine Government has begun to make a commitment. In 
this case they have involved 15 former police officers and 
three civilians. That trial is ready to begin this fall. They 
have acted as a host and a participant in several regional 
conferences on terrorism. They have contributed to the creation 
of the new OAS Inter-American Counterterrorism Committee. They 
have issued an international arrest warrant against the Islamic 
Jihad leader who is believed to be responsible for that act of 
terrorism. So I would propose that we add this language in 
further recognition of the contribution that they are making 
now to the antiterrorism effort.
    Mr. Lantos. Madam Chair.
    Ms. Ros-Lehtinen. Mr. Lantos is recognized for 5 minutes.
    Mr. Lantos. Madam Chair, as a freestanding issue, 
commending the new government in participating in antiterrorism 
efforts is certainly not objectionable, but that is not the 
topic of this resolution. This resolution condemns the 1994 
attack on the Jewish Community Center in Buenos Aires in which 
86 innocent people were killed.
    I mean, it seems to me that when we deal with Nazi 
atrocities, we are not then praising the Schroeder government 
for accelerating the European Union. This is a different topic, 
and I will oppose this amendment as being totally nongermane to 
the topic.
    The topic of the resolution that we are dealing with that 
you and I and others have cosponsored deals with the 
condemnation of the terrorist attack on the Jewish Community 
Center 6 years ago, the perpetrators of which still have not 
been apprehended and brought to justice. That is the issue.
    I am prepared to offer any number of gracious resolutions 
about Argentinian actions, public or private, but that is not 
the topic of this resolution, and I will be compelled to oppose 
the gentleman's amendment.
    Ms. Ros-Lehtinen. Thank you, Mr. Lantos.
    I recognize myself for 5 minutes also in opposition to the 
amendment, not that there is anything in the amendment that is 
offensive, but it does not get to the heart of what this 
resolution is all about, as Mr. Lantos so eloquently described, 
and I will read two other whereas clauses where I believe we 
are sufficiently in praise.
    It says, ``Whereas the United States welcomes Argentine 
President Fernando de la Rua's political will to pursue the 
investigation of the bombing of the AMIA Jewish Community 
Center to its ultimate conclusion,'' and later on, ``Whereas 
the Government of Argentina supports the 1996 Declaration of 
Lima to Prevent Combat and Eliminate Terrorism, which refers to 
terrorism as a serious form of organized and systematic 
violence that is intended to generate chaos and fear among the 
population, results in death and destruction, and is a 
reprehensible criminal activity, as well as the 1998 Commitment 
of Mar del Plata which calls terrorist acts serious common 
crimes that erode peaceful and civilized coexistence, affect 
the rule of law and exercise of democracy, and endanger the 
stability of democratically elected constitutional governments 
and the socioeconomic development of our countries.'' We say 
later in the resolution ``That the House of Representatives 
desires a lasting, warm relationship between the United States 
and Argentina built on a mutual abhorrence of terrorism and 
commitments to peace, stability, and democracy in the Western 
Hemisphere.''
    Those are three parts of the resolution where we praise the 
new administration. We commend them for being signers of two 
declarations of international commitment to eliminate terrorist 
acts, and we confirm and reaffirm our established bonds of 
cooperation.
    I think we are going to love this to death by further 
commending Argentina. I think three times in a bill is more 
than enough, especially because the purpose of the bill is to 
draw attention to the fact that over 6 years have gone by, and 
we are no closer to the resolution of this crime. And once 
again I will say that resulted in the deaths of 86 innocent 
human beings and the injury of over 300, and their crime was to 
be Jewish.
    Is there any further debate on the amendment? If not, the 
question is on the amendment.
    Mr. Rohrabacher is recognized to speak on the amendment for 
5 minutes.
    Mr. Rohrabacher. I oppose the amendment for the reasons 
stated, but I would like to give my colleague Mr. Gillmor a 
chance to reply because he had used his 5 minutes.
    Ms. Ros-Lehtinen. Mr. Gillmor is recognized.
    Mr. Rohrabacher. I would yield to the gentleman. I believe 
my colleague is a very well-intended person, he is a very smart 
person. I respect him greatly, and I disagree with him. If he 
has anything to say----
    Ms. Ros-Lehtinen. Mr. Rohrabacher yields to Mr. Gillmor.
    Mr. Gillmor. Let me read the language again, and then 
people can tell me why they disagree with it.
    The current government--we are not talking about the past 
government--the current government has made a commitment to 
combating international terrorism. Now, there is no question 
about that, that is true, and why we find that difficult to say 
is beyond me--as illustrated by their contribution to the 
creation of the new Organization of American States Inter-
American Counterterrorism Committee.
    Now, if our goal is to encourage other countries in this 
case, specifically Argentina, to help combat terrorism, I find 
it hard to see after reading the language how that is offensive 
to anyone. Certainly it is not any more offensive than the 
language that we have put in there about desiring a lasting, 
warm relationship between the United States and Argentina, and 
I would simply submit that maybe this language would help us 
achieve that.
    Ms. Ros-Lehtinen. Mr. Lantos is recognized.
    Mr. Rohrabacher. I have the time, and I would be happy to 
yield to Mr. Lantos.
    Mr. Lantos. I thank my good friend from California for 
yielding.
    As Mr. Gillmor will remember, my opening sentence in 
reacting to his amendment was to indicate that I don't find his 
statement objectionable at all standing on its own. But there 
is a balance in this resolution. The resolution deals with a 
heinous crime against the Jewish people perpetrated in 
Argentina. That is what we are dealing with. We are not dealing 
with a series of accolades given to the Government of 
Argentina. The gentlelady who crafted this resolution did a 
brilliant job. She has made three highly laudatory statements 
concerning the current Government of Argentina. That is enough.
    I think it is important to realize what the purpose of this 
resolution is. It is not to congratulate Argentina. It is to 
call attention to a terrorist attack in which 86 innocent 
people were killed, and it is sort of important for all of us 
to have some empathy for that tragedy. We have now praised 
Argentina enough in three separate paragraphs, and that is why 
some of us oppose adding additional accolades to Argentina.
    I also tell my good friend while the new government has 
indicated its determination to deal with this heinous crime, 
nothing has yet unfolded. The perpetrators have not yet been 
fully brought to justice. The process has begun 6 years too 
late, but that is not the issue.
    It would be analogous to dealing with the Holocaust issue 
and praising the people who have built the museums in the 
places where the people were killed. That is not the 
fundamental issue here. The fundamental issue is the terrorism 
predicated on a hate crime, and I wish to reiterate I strongly 
oppose further accolades given to Argentina.
    Ms. Ros-Lehtinen. Thank you, Mr. Lantos.
    The question is on the Gillmor amendment. As many are in 
favor, say aye.
    As many as are opposed, say no.
    The noes appear to have it. The noes have it. The amendment 
is not agreed to.
    Is there any further discussion on the bill?
    If not, the gentleman from California is recognized to 
offer a motion.
    Mr. Rohrabacher. Madam Chair, I move that the Chairman be 
requested to seek consideration of the pending resolution as 
amended on the suspension calendar.
    Ms. Ros-Lehtinen. The question is on the motion of the 
gentleman from California. As many as are in favor, say aye.
    Opposed, no.
    The ayes have it, and the motion is agreed to. Further 
proceedings on this measure are postponed.
    Mr. Smith, if you will take the Chair.


       H.R. 4528--INTERNATIONAL ACADEMIC OPPORTUNITY ACT OF 2000


    Mr. Smith [presiding]. We will now consider H.R. 4528, to 
establish a program to enable American students with a 
financial need to study abroad. The Chair lays the bill before 
the Committee. The clerk will report the title.
    Ms. Bloomer. H.R. 4528, a bill to establish an 
undergraduate grant program at the Department of State to 
assist students of limited financial means from the United 
States to pursue studies at foreign institutions of higher 
education.
    Mr. Smith. The clerk will read the bill for amendment.
    Ms. Bloomer. Being enacted by the Senate and House of 
Representatives of the United of America and Congress 
assembled. Section 1, short title. This act----
    Mr. Smith. Without objection, the bill will be considered 
as read.
    [The bill appears in the appendix.]
    Mr. Smith. This bill was referred to the Subcommittee on 
International Operations and Human Rights, and yesterday was 
marked up and forwarded to the full Committee with an amendment 
in the nature of a substitute. Without objection, the amendment 
in the nature of a substitute that is before the Members is 
marked the committee print. It will be treated as the original 
text for the purpose of amendment and will be read for 
amendment. The clerk will read the amendment in the nature of a 
substitute.
    Ms. Bloomer. Section 1, short title, this act----
    Mr. Smith. Without objection, the subcommittee amendment is 
considered as having been read and is open for amendment.
    [The amendment appears in the appendix.]
    Mr. Smith. I would like to recognize myself to explain the 
amendment.
    Chairman Gilman, I am proud to note that yesterday the 
Subcommittee on International Operations and Human Rights 
favorably reported your legislation, H.R. 4528, the 
International Academic Opportunity Act of 2000, to our full 
Committee. The only change we made was to rename the program as 
the Benjamin A. Gilman International Scholarships. This, I 
believe, is an honor befitting the author of this legislation 
which reflects your commitment to strengthening U.S. public 
diplomacy during your distinguished tenure as Chairman of this 
Committee.
    The International Academic Opportunity Act of 2000 would 
establish a grant program to help American undergraduate 
students of limited financial means to study abroad. It 
authorizes $1.5 million per year for that purpose. It also 
requires that Congress be provided an annual report on the 
number of participating students and the institutions at which 
they study. The intention of the bill is to provide the study 
abroad programs that exist at many colleges and universities 
with funds that would allow them to reach out to students that 
might not otherwise consider such study because of the 
additional travel and living expenses it requires.
    By providing for a single-year grant of up to $5,000 per 
student, the Gilman Scholarships will help students of 
demonstrated financial need to avail themselves of this 
valuable educational experience. By living and studying in a 
new culture, these students will be better equipped to 
participate in world affairs and the global economy. 
Furthermore, by broadening participation in U.S. diplomacy 
efforts, this program will give the communities to which the 
students travel a richer, more diverse experience of American 
culture.
    I would like to recognize to the distinguished gentleman 
from New York, Mr. Gilman, for any comments he might have.
    Chairman Gilman. I want to thank our distinguished Chairman 
of the Subcommittee on International Operations for bringing 
this measure to the full Committee. I introduced this measure 
along with Mr. Hinchey of New York to encourage our 
undergraduate college students to study abroad for at least a 
year, and I believe American students need to be prepared to 
operate in the international environment and economy. And that 
is why we want to assist college-level students to find a way 
to study abroad, and one of the best ways to prepare young 
people is to allow them to experience life outside of our 
nation.
    I am pleased that the Committee approved the authorization 
of $1.5 million to be made available to the State Department 
for individual student grants up to $5,000. The intention is to 
work with the existing college campus study programs, and those 
grants will allow colleges and universities to reach out to the 
low-income students, and it would expand the pool of students 
that will benefit personally and later professionally from an 
internationally oriented education.
    This program was developed with the assistance of college 
administrators and the exchange experts, and let's hope a 
streamlined program will encourage more students to participate 
in overseas educational programs and motivate them to learn and 
apply a foreign language. These experiences and skills, I 
think, will serve them well as they enter our work force.
    I have received letters of support for this legislation 
from the Institute of International Education; from the 
American Council on Education, which represents 1,800 colleges 
and universities; and the President of State University of New 
York; and Mr. Paul, who also represents the American 
Association of State Colleges and Universities; the Global 
Responsibilities Committee, and I thank the gentleman for 
bringing this measure up at this time.
    Mr. Smith. Let me say that the renaming of this program as 
the Gilman Scholarships, was a surprise to the Chairman, and it 
is truly a very small but very sincere token of our respect and 
admiration for the distinguished gentleman from New York.
    I would like to recognize Mr. Gejdenson.
    Mr. Gejdenson. Thank you.
    I would like to commend Chairman Gilman for his leadership 
on this issue. It is particularly, I think, an appropriate 
action to be taken by this Committee to make sure that we are 
able to give not just one segment of American society an 
opportunity to see the rest of the world and get a sense of 
international issues that affect us, from trade to human 
rights, but to make sure that every American, no matter what 
their economic station is, has that opportunity.
    So I commend the Chairman. It is an excellent bill, and I 
hope that we can pass it expeditiously.
    Mr. Smith. I thank my friend.
    Mr. Rohrabacher.
    Mr. Rohrabacher. I rise in support of the amendment, the 
resolution, but let me say that I would not be supporting this 
if it wasn't named after Chairman Gilman.
    Chairman Gilman. Thank you.
    Mr. Rohrabacher. I have always been very proud of my record 
of frugality, but I know that Ben's benevolence is something 
that he is more proud of than I am of my frugality. Ben has a 
good heart and is a man of such honor and integrity and caring 
that I believe that I will vote for this just for the 
opportunity to make that expression official.
    Mr. Smith. I thank my friend from California.
    Are there any other Members?
    The question is on the adoption of the subcommittee 
amendment as amended. All those in favor, say aye.
    Those opposed, say no.
    The ayes have it. The amendment as amended is agreed to.
    Without objection, the previous question is ordered. The 
gentleman from New York is recognized to offer a motion.
    Chairman Gilman. Mr. Chairman, I move that the Chairman be 
requested to submit for consideration the pending bill as 
amended on the suspension calendar.
    Mr. Smith. The question is now on the motion of the 
gentleman from New York. Those in favor of the motion, say aye.
    All those opposed, no.
    The ayes have it, and the motion is agreed to. The Chair or 
his designees is authorized to move under rule 22 with respect 
to a conference on this bill or a counterpart in the Senate. 
Further proceedings in the measure are postponed.
    Without objection, the Committee is adjourned.
    [Whereupon, at 6:30 p.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             June 29, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T8024.001
    
    [GRAPHIC] [TIFF OMITTED] T8024.002
    
    [GRAPHIC] [TIFF OMITTED] T8024.003
    
    [GRAPHIC] [TIFF OMITTED] T8024.004
    
    [GRAPHIC] [TIFF OMITTED] T8024.005
    
    [GRAPHIC] [TIFF OMITTED] T8024.006
    
    [GRAPHIC] [TIFF OMITTED] T8024.007
    
    [GRAPHIC] [TIFF OMITTED] T8024.008
    
    [GRAPHIC] [TIFF OMITTED] T8024.009
    
    [GRAPHIC] [TIFF OMITTED] T8024.010
    
    [GRAPHIC] [TIFF OMITTED] T8024.011
    
    [GRAPHIC] [TIFF OMITTED] T8024.012
    
    [GRAPHIC] [TIFF OMITTED] T8024.013
    
    [GRAPHIC] [TIFF OMITTED] T8024.014
    
    [GRAPHIC] [TIFF OMITTED] T8024.015
    
    [GRAPHIC] [TIFF OMITTED] T8024.016
    
    [GRAPHIC] [TIFF OMITTED] T8024.017
    
    [GRAPHIC] [TIFF OMITTED] T8024.018
    
    [GRAPHIC] [TIFF OMITTED] T8024.019
    
    [GRAPHIC] [TIFF OMITTED] T8024.020
    
    [GRAPHIC] [TIFF OMITTED] T8024.021
    
    [GRAPHIC] [TIFF OMITTED] T8024.022
    
    [GRAPHIC] [TIFF OMITTED] T8024.023
    
    [GRAPHIC] [TIFF OMITTED] T8024.024
    
    [GRAPHIC] [TIFF OMITTED] T8024.025
    
    [GRAPHIC] [TIFF OMITTED] T8024.026
    
    [GRAPHIC] [TIFF OMITTED] T8024.027
    
    [GRAPHIC] [TIFF OMITTED] T8024.028
    
    [GRAPHIC] [TIFF OMITTED] T8024.029
    
    [GRAPHIC] [TIFF OMITTED] T8024.030
    
    [GRAPHIC] [TIFF OMITTED] T8024.031
    
    [GRAPHIC] [TIFF OMITTED] T8024.032
    
    [GRAPHIC] [TIFF OMITTED] T8024.033
    
    [GRAPHIC] [TIFF OMITTED] T8024.034
    
    [GRAPHIC] [TIFF OMITTED] T8024.035
    
    [GRAPHIC] [TIFF OMITTED] T8024.036
    
    [GRAPHIC] [TIFF OMITTED] T8024.037
    
    [GRAPHIC] [TIFF OMITTED] T8024.038
    
    [GRAPHIC] [TIFF OMITTED] T8024.039
    
    [GRAPHIC] [TIFF OMITTED] T8024.040
    
    [GRAPHIC] [TIFF OMITTED] T8024.041
    
    [GRAPHIC] [TIFF OMITTED] T8024.042
    
    [GRAPHIC] [TIFF OMITTED] T8024.043
    
    [GRAPHIC] [TIFF OMITTED] T8024.044
    
    [GRAPHIC] [TIFF OMITTED] T8024.045
    
    [GRAPHIC] [TIFF OMITTED] T8024.046
    
    [GRAPHIC] [TIFF OMITTED] T8024.047
    
    [GRAPHIC] [TIFF OMITTED] T8024.048
    
    [GRAPHIC] [TIFF OMITTED] T8024.049
    
    [GRAPHIC] [TIFF OMITTED] T8024.050
    
    [GRAPHIC] [TIFF OMITTED] T8024.051
    
    [GRAPHIC] [TIFF OMITTED] T8024.052
    
    [GRAPHIC] [TIFF OMITTED] T8024.053
    
    [GRAPHIC] [TIFF OMITTED] T8024.054
    
    [GRAPHIC] [TIFF OMITTED] T8024.055
    
    [GRAPHIC] [TIFF OMITTED] T8024.056
    
    [GRAPHIC] [TIFF OMITTED] T8024.057
    
    [GRAPHIC] [TIFF OMITTED] T8024.058
    
    [GRAPHIC] [TIFF OMITTED] T8024.059
    
    [GRAPHIC] [TIFF OMITTED] T8024.060
    
    [GRAPHIC] [TIFF OMITTED] T8024.061
    
    [GRAPHIC] [TIFF OMITTED] T8024.062
    
    [GRAPHIC] [TIFF OMITTED] T8024.063
    
    [GRAPHIC] [TIFF OMITTED] T8024.064
    
    [GRAPHIC] [TIFF OMITTED] T8024.065
    
    [GRAPHIC] [TIFF OMITTED] T8024.066
    
    [GRAPHIC] [TIFF OMITTED] T8024.067
    
    [GRAPHIC] [TIFF OMITTED] T8024.068
    
    [GRAPHIC] [TIFF OMITTED] T8024.069
    
    [GRAPHIC] [TIFF OMITTED] T8024.070
    
    [GRAPHIC] [TIFF OMITTED] T8024.160
    
    [GRAPHIC] [TIFF OMITTED] T8024.071
    
    [GRAPHIC] [TIFF OMITTED] T8024.073
    
    [GRAPHIC] [TIFF OMITTED] T8024.074
    
    [GRAPHIC] [TIFF OMITTED] T8024.075
    
    [GRAPHIC] [TIFF OMITTED] T8024.076
    
    [GRAPHIC] [TIFF OMITTED] T8024.077
    
    [GRAPHIC] [TIFF OMITTED] T8024.078
    
    [GRAPHIC] [TIFF OMITTED] T8024.079
    
    [GRAPHIC] [TIFF OMITTED] T8024.080
    
    [GRAPHIC] [TIFF OMITTED] T8024.081
    
    [GRAPHIC] [TIFF OMITTED] T8024.082
    
    [GRAPHIC] [TIFF OMITTED] T8024.083
    
    [GRAPHIC] [TIFF OMITTED] T8024.084
    
    [GRAPHIC] [TIFF OMITTED] T8024.085
    
    [GRAPHIC] [TIFF OMITTED] T8024.086
    
    [GRAPHIC] [TIFF OMITTED] T8024.087
    
    [GRAPHIC] [TIFF OMITTED] T8024.088
    
    [GRAPHIC] [TIFF OMITTED] T8024.089
    
    [GRAPHIC] [TIFF OMITTED] T8024.090
    
    [GRAPHIC] [TIFF OMITTED] T8024.091
    
    [GRAPHIC] [TIFF OMITTED] T8024.092
    
    [GRAPHIC] [TIFF OMITTED] T8024.093
    
    [GRAPHIC] [TIFF OMITTED] T8024.094
    
    [GRAPHIC] [TIFF OMITTED] T8024.095
    
    [GRAPHIC] [TIFF OMITTED] T8024.096
    
    [GRAPHIC] [TIFF OMITTED] T8024.097
    
    [GRAPHIC] [TIFF OMITTED] T8024.098
    
    [GRAPHIC] [TIFF OMITTED] T8024.099
    
    [GRAPHIC] [TIFF OMITTED] T8024.100
    
    [GRAPHIC] [TIFF OMITTED] T8024.101
    
    [GRAPHIC] [TIFF OMITTED] T8024.102
    
    [GRAPHIC] [TIFF OMITTED] T8024.103
    
    [GRAPHIC] [TIFF OMITTED] T8024.104
    
    [GRAPHIC] [TIFF OMITTED] T8024.105
    
    [GRAPHIC] [TIFF OMITTED] T8024.106
    
    [GRAPHIC] [TIFF OMITTED] T8024.107
    
    [GRAPHIC] [TIFF OMITTED] T8024.108
    
    [GRAPHIC] [TIFF OMITTED] T8024.109
    
    [GRAPHIC] [TIFF OMITTED] T8024.110
    
    [GRAPHIC] [TIFF OMITTED] T8024.111
    
    [GRAPHIC] [TIFF OMITTED] T8024.112
    
    [GRAPHIC] [TIFF OMITTED] T8024.113
    
    [GRAPHIC] [TIFF OMITTED] T8024.114
    
    [GRAPHIC] [TIFF OMITTED] T8024.115
    
    [GRAPHIC] [TIFF OMITTED] T8024.116
    
    [GRAPHIC] [TIFF OMITTED] T8024.117
    
    [GRAPHIC] [TIFF OMITTED] T8024.118
    
    [GRAPHIC] [TIFF OMITTED] T8024.119
    
    [GRAPHIC] [TIFF OMITTED] T8024.120
    
    [GRAPHIC] [TIFF OMITTED] T8024.121
    
    [GRAPHIC] [TIFF OMITTED] T8024.122
    
    [GRAPHIC] [TIFF OMITTED] T8024.123
    
    [GRAPHIC] [TIFF OMITTED] T8024.124
    
    [GRAPHIC] [TIFF OMITTED] T8024.125
    
    [GRAPHIC] [TIFF OMITTED] T8024.126
    
    [GRAPHIC] [TIFF OMITTED] T8024.127
    
    [GRAPHIC] [TIFF OMITTED] T8024.128
    
    [GRAPHIC] [TIFF OMITTED] T8024.129
    
    [GRAPHIC] [TIFF OMITTED] T8024.130
    
    [GRAPHIC] [TIFF OMITTED] T8024.131
    
    [GRAPHIC] [TIFF OMITTED] T8024.132
    
    [GRAPHIC] [TIFF OMITTED] T8024.133
    
    [GRAPHIC] [TIFF OMITTED] T8024.134
    
    [GRAPHIC] [TIFF OMITTED] T8024.135
    
    [GRAPHIC] [TIFF OMITTED] T8024.136
    
    [GRAPHIC] [TIFF OMITTED] T8024.137
    
    [GRAPHIC] [TIFF OMITTED] T8024.138
    
    [GRAPHIC] [TIFF OMITTED] T8024.139
    
    [GRAPHIC] [TIFF OMITTED] T8024.140
    
    [GRAPHIC] [TIFF OMITTED] T8024.141
    
    [GRAPHIC] [TIFF OMITTED] T8024.142
    
    [GRAPHIC] [TIFF OMITTED] T8024.143
    
    [GRAPHIC] [TIFF OMITTED] T8024.144
    
    [GRAPHIC] [TIFF OMITTED] T8024.145
    
    [GRAPHIC] [TIFF OMITTED] T8024.146
    
    [GRAPHIC] [TIFF OMITTED] T8024.147
    
    [GRAPHIC] [TIFF OMITTED] T8024.148
    
    [GRAPHIC] [TIFF OMITTED] T8024.149
    
    [GRAPHIC] [TIFF OMITTED] T8024.150
    
    [GRAPHIC] [TIFF OMITTED] T8024.151
    
    [GRAPHIC] [TIFF OMITTED] T8024.152
    
    [GRAPHIC] [TIFF OMITTED] T8024.153
    
    [GRAPHIC] [TIFF OMITTED] T8024.154
    
    [GRAPHIC] [TIFF OMITTED] T8024.155
    
    [GRAPHIC] [TIFF OMITTED] T8024.156
    
    [GRAPHIC] [TIFF OMITTED] T8024.157
    
    [GRAPHIC] [TIFF OMITTED] T8024.158
    
    [GRAPHIC] [TIFF OMITTED] T8024.159
    

</pre></body></html>
